<html>
<title> - WORKFORCE INVESTMENT AND REHABILITATION ACTS: IMPROVING SERVICE AND EMPOWERING INDIVIDUALS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                             WORKFORCE INVESTMENT AND
                               REHABILITATION ACTS:
                         IMPROVING SERVICE AND EMPOWERING 
                                 INDIVIDUALS
_______________________________________________________________________




                                  HEARING

                                BEFORE THE

                        SUBCOMMITTEE ON 21ST CENTURY 

                              COMPETITIVENESS

                                   OF THE

                        COMMITTEE ON EDUCATION AND

                               THE WORKFORCE


                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS

                                FIRST SESSION

                                   _________

               HEARING HELD IN WASHINGTON, DC, MARCH 11, 2003

                                   _________


                                Serial No. 108-6
                                   _________




              Printed for the use of the Committee on Education
                                and the Workforce



86-384 
____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 512-1800FAX: (202) 512-2250  Mail: Stop SSOP, Washington, DC 20402-0001 












                         COMMITTEE ON EDUCATION AND THE WORKFORCE

                            JOHN A. BOEHNER, Ohio, Chairman

THOMAS E. PETRI, Wisconsin			GEORGE MILLER, California
CASS BALLENGER, North Carolina			DALE E. KILDEE, Michigan
PETER HOEKSTRA, Michigan			MAJOR R. OWENS, New York
HOWARD P. "BUCK" McKEON, California		DONALD M. PAYNE, New Jersey
MICHAEL N. CASTLE, Delaware			ROBERT E. ANDREWS, New Jersey
SAM JOHNSON, Texas				LYNN C. WOOLSEY, California
JAMES C. GREENWOOD, Pennsylvania		RUBEN HINOJOSA, Texas
CHARLIE NORWOOD, Georgia			CAROLYN McCARTHY, New York
FRED UPTON, Michigan				JOHN F. TIERNEY, Massachusetts
VERNON J. EHLERS, Michigan			RON KIND, Wisconsin
JIM DeMINT, South Carolina			DENNIS J. KUCINICH, Ohio
JOHNNY ISAKSON, Georgia				DAVID WU, Oregon
JUDY BIGGERT, Illinois				RUSH D. HOLT, New Jersey
TODD RUSSELL PLATTS, Pennsylvania		SUSAN A. DAVIS, California
PATRICK J. TIBERI, Ohio				BETTY McCOLLUM, Minnesota
RIC KELLER, Florida				DANNY K. DAVIS, Illinois
TOM OSBORNE, Nebraska				ED CASE, Hawaii
JOE WILSON, South Carolina			RAUL M. GRIJALVA, Arizona
TOM COLE, Oklahoma				DENISE L. MAJETTE, Georgia
JON C. PORTER, Nevada				CHRIS VAN HOLLEN, Maryland
JOHN KLINE, Minnesota				TIMOTHY J. RYAN, Ohio
JOHN R. CARTER, Texas				TIMOTHY H. BISHOP, New York
	MARILYN N. MUSGRAVE, Colorado
	MARSHA BLCAKBURN, Tennessee
	PHIL GINGREY, Georgia
	MAX BURNS, Georgia

             Paula Nowakowski, Chief of Staff
        John Lawrence, Minority Staff Director


                 SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS
                 HOWARD P. "BUCK" McKEON, California, Chairman

JOHNNY ISAKSON, Georgia, Vice Chairman		DALE E. KILDEE, Michigan
JOHN A. BOEHNER, Ohio				JOHN F. TIERNEY, Massachusetts
THOMAS E. PETRI, Wisconsin			RON KIND, Wisconsin
MICHAEL N. CASTLE, Delaware			DAVID WU, Oregon
SAM JOHNSON, Texas				RUSH D. HOLT, New Jersey
FRED UPTON, Michigan				BETTY McCOLLUM, Minnesota
VERNON J. EHLERS, Michigan			CAROLYN McCARTHY, New York
PATRICK J. TIBERI, Ohio				CHRIS VAN HOLLEN, Maryland
RIC KELLER, Florida				TIMOTHY J. RYAN, Ohio
TOM OSBORNE, Nebraska				MAJOR R. OWENS, New York
TOM COLE, Oklahoma				DONALD M. PAYNE, New Jersey
JON C. PORTER, Nevada				ROBERT E. ANDREWS, New Jersey
JOHN R. CARTER, Texas				RUBEN HINOJOSA, Texas
PHIL GONGREY, Georgia
MAX BURNS, Georgia












                               Table of Contents




OPENING STATEMENT OF CHAIRMAN BUCK MCKEON, SUBCOMMITTEE ON 21ST 
CENTURY COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE..................................................2

OPENING STATEMENT OF RANKING MEMBER DALE KILDEE, SUBCOMMITTEE ON 
21ST CENTURY COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE..................................................4

STATEMENT OF EMILY STOVER DeROCCO, ASSISTANT SECRETARY OF LABOR, 
EMPLOYMENT AND TRAINING ADMINISTRATION, U.S. DEPARTMENT OF LABOR, 
WASHINGTON, D.C...................................................6

STATEMENT OF ROBERT H. PASTERNACK, ASSISTANT SECRETARY FOR SPECIAL 
EDUCATION AND REHABILITATIVE SERVICES, U.S. DEPARTMENT OF EDUCATION, 
WASHINGTON, D.C...................................................8

STATEMENT OF THOMAS J. WHITE, PRESIDENT AND CEO, GREATER DURHAM 
CHAMBER OF COMMERCE, DURHAM, NC..................................................35

STATEMENT OF JOHN TWOMEY, PRESIDENT, NATIONAL WORKFORCE 
ASSOCIATION, WASHINGTON, D.C...................................................37

STATEMENT OF STEVEN SAVNER, SENIOR STAFF ATTORNEY, CENTER FOR LAW 
AND SOCIAL POLICY, WASHINGTON, D.C...................................................39

STATEMENT OF BETTIE SHAW-HENDERSON, DISTRICT MANAGER, MICHIGAN 
DEPARTMENT OF VOCATIONAL REHABILITATION, KENTWOOD, MI..................................................42

APPENDIX A - WRITTEN OPENING STATEMENTOF CHAIRMAN BUCK MCKEON, 
SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS, COMMITTEE ON 
EDUCATION AND THE WORKFORCE..................................................51

APPENDIX B - WRITTEN STATEMENT OF EMILY STOVER DeROCCO, ASSISTANT 
SECRETARY OF LABOR, EMPLOYMENT AND TRAINING ADMINISTRATION, U.S. 
DEPARTMENT OF LABOR, WASHINGTON, D.C...................................................57

APPENDIX C - WRITTTEN STATEMENT OF ROBERT H. PASTERNACK, ASSISTANT 
SECRETARY FOR SPECIAL EDUCATION AND REHABILITATIVE SERVICES, U.S. 
DEPARTMENT OF EDUCATION, WASHINGTON, D.C...................................................79

APPENDIX D - WRITTEN STATEMENT OF THOMAS J. WHITE, PRESIDENT AND CEO, 
GREATER DURHAM CHAMBER OF COMMERCE, DURHAM, NC..................................................87

APPENDIX E - WRITTEN STATEMENT OF JOHN TWOMEY, PRESIDENT, NATIONAL 
WORKFORCE ASSOCIATION, WASHINGTON, D.C...................................................93

APPENDIX F - WRITTEN STATEMENT OF STEVEN SAVNER, SENIOR STAFF 
ATTORNEY, CENTER FOR LAW AND SOCIAL POLICY, WASHINGTON, D.C...................................................103

APPENDIX G - WRITTEN STATEMENT OF BETTIE SHAW-HENDERSON, DISTRICT 
MANAGER, MICHIGAN DEPARTMENT OF VOCATIONAL REHABILITATION, 
KENTWOOD, MI..................................................119

APPENDIX H  -  SUBMITTED FOR THE RECORD, STATEMENT OF CARLOS LOPEZ, ON 
BEHALF OF HERMELINDA SAPIEN, EXECUTIVE DIRECTOR, CENTER FOR 
EMPLOYMENT TRAINING, SAN JOSE, CA..................................................127

APPENDIX I  -  SUBMITTED FOR THE RECORD, STATEMENT OF THE ASSOCIATION 
FOR PERSONS IN SUPPORTED EMPLOYMENT (APSE), RICHMOND, VA..................................................135

APPENDIX J  -  SUBMITTED FOR THE RECORD, STATEMENT OF THE COUNCIL OF 
STATE ADMINISTRATORS OF VOCATIONAL REHABILITATION (CSAVR)..................................................147

APPENDIX K  -  SUBMITTED FOR THE RECORD, STATEMENT OF CONSORTIUM FOR 
CITIZENS WITH DISABILITIES ON BEHALF OF VARIOUS ORGANIZATIONS LISTED 
HEREIN..................................................167

APPENDIX L  -  SUBMITTED FOR THE RECORD, STATEMENT OF TREVA 
ROANHORSE, PRESIDENT, CONSORTIA OF ADMINISTRATORS FOR NATIVE 
AMERICAN REHABILITATION, WINDOWROCK, AZ..................................................177

Table of Indexes..................................................181














WORKFORCE INVESTMENT AND REHABILITATION ACTS:

IMPROVING SERVICE AND EMPOWERING INDIVIDUALS

___________________


Tuesday, March 11, 2003


Subcommittee on 21st Century Competitiveness

Committee on Education and the Workforce

 U. S. House of Representatives

Washington, D.C.







	The Subcommittee met, pursuant to call, at 2:00 p.m., in Room 2175, Rayburn House 
Office Building, Hon. Howard P. "Buck" McKeon, Chairman of the Subcommittee, presiding.

	Present:  Representatives McKeon, Boehner, Johnson, Ehlers, Gingrey, Burns, Kildee, 
Tierney, Wu, McCarthy, Van Hollen, Ryan, Payne and Hinojosa.

	Staff Present:  Stephanie Milburn, Professional Staff Member; Stacey Dion, Professional 
Staff Member; Travis McCoy, Legislative Assistant; Krisann Pearce, Deputy Director of Education 
and Human Resources Policy; Maria Miller, Coalitions Director for Education Policy; David 
Cleary, Professional Staff Member; Amanda Farris, Professional Staff Member; Jo-Marie St. 
Martin, General Counsel; Kevin Frank, Professional Staff Member; Deborah L. Samantar, 
Committee Clerk/Intern Coordinator.

Mark Zuckerman, Minority General Counsel; Michele Varnhagen, Minority Labor 
Counsel/Coordinator; Denise Forte, Minority Legislative Associate, Education; Alex Nock, 
Minority Legislative Associate, Education; Joe Novotny, Minority Clerk/Staff Assistant, 
Education; Dan Rawlins, Minority Staff Assistant, Labor.

Chairman McKeon.  A quorum being present, the Subcommittee on 21st Century 
Competitiveness will come to order.  We are meeting today to hear testimony on the Workforce 
Investment and Rehabilitation Acts:  Improving Services and Empowering Individuals.  

	If other Members have statements, they may be included in the record, but we will hear 
Opening Statements from the Ranking Member and myself today.  With that, I ask unanimous 
consent for the hearing record to remain open 14 days to allow Members' statements and other 
extraneous material referenced during the hearing to be submitted in the official hearing record.  
Without objection, so ordered.

Good afternoon.  Good to see you all here.  Nice warm place out of the snow.  I was in 
sunny California yesterday.  It was 90 degrees.  I was sure glad to get out of that heat.


OPENING STATEMENT OF CHAIRMAN BUCK MCKEON, 
SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS, COMMITTEE 
ON EDUCATION AND THE WORKFORCE

	Thank you for joining this important hearing today to hear testimony on recommendations 
for reauthorization of the Workforce Investment Act of 1998 and the Rehabilitation Act.  This will 
be our fourth hearing on the Workforce Investment Act within the last 2 years and first hearing 
focusing on the Rehabilitation Act.

	In 1998, under this Committee's leadership, Congress passed the Workforce Investment Act 
to reform the nation's job training system that formerly was fragmented, contained overlapping 
programs, and did not serve either job seekers or employers well.  WIA consolidated and integrated 
employment and training services at the local level in a more unified workforce development 
system.  The act created three funding streams to provide for adult employment and training 
services, dislocated workers employment and training services, and youth development services.  
The local, business-led workforce investment boards direct these services.

	One of the hallmarks of the new system is that in order to encourage the development of 
comprehensive systems that improve services to both employers and job seekers, local services are 
provided through a One-Stop delivery system.  At the One-Stop centers, assistance ranges from 
core services such as job search and placement assistance, to access to job listings and an initial 
assessment of skills and needs, intensive services, such as comprehensive assessment and case 
management, and if needed, occupational skills training.

	In addition, to further promote a seamless system of services for job seekers and employers, 
numerous other federal programs also must make their services available through the One-Stop 
system.  Vocational rehabilitation is one of the mandatory partners in the workforce development 
system.

	The WIA system contains the federal government's primary programs for investment in our 
nation's workforce preparation.  Even though the system is still maturing since its full 
implementation in July of 2000, States and local areas have created comprehensive services and 
effective One-Stop delivery systems.  The system is serving the needs of unemployed workers 
seeking new jobs in this time of economic recovery.  In addition, the training services provided 
through WIA are invaluable in helping employers find the workers they need in areas of the 
country facing skill shortages.

	Nonetheless there have been challenges with the system.  For example, we have heard of 
the need to increase the financial contribution of the mandatory partners in the One-Stop career 
centers, while at the same time increasing the service integration among the partner programs.  This 
includes serving through the One-Stop system special populations that have unique needs.  We 
have heard recommendations to simplify the local and State governance processes and to 
strengthen the private sector's role.  In addition, we have heard about the need to increase training 
opportunities and improve performance and accountability.	We look forward to hearing our 
witnesses' comments on these issues as we seek to enhance the system so that it will continue to 
meet the training and employment needs of the information-based, highly skilled 21st century 
workforce.

	We also are considering the Rehabilitation Act, which authorizes the nation's major 
program providing comprehensive vocational rehabilitation services to help persons with 
disabilities become employable and achieve full integration into society.  The 1998 reauthorization 
simplified certain aspects of vocational rehabilitation to expand consumer choice of services and 
providers, coordinate the vocational rehabilitation system with the One-Stop delivery system, and 
to increase consumers' involvement in the planning process and development of employment goals.

	The vocational rehabilitation system largely has succeeded in achieving its purpose of 
providing more control to the individuals it serves; however, we do look forward to examining the 
degree to which the system is integrating with workforce development and how well the One-Stop 
system is serving individuals with disabilities.

	Today we have the opportunity to hear reauthorization recommendations from the 
Administration and several important stakeholder groups.  First we will hear from Assistant 
Secretary Emily DeRocco from the Department of Labor and Assistant Secretary Robert 
Pasternack from the Department of Education regarding the Administration's proposals for 
reauthorization of these two vital programs.  Then we will hear from leaders in the fields of 
business, workforce development, and vocational rehabilitation to learn their thoughts and 
recommendations for these Acts.  The Subcommittee welcomes your insights as we move toward 
reauthorization.

	I look forward to working with the Members of this Committee, the Administration and all 
stakeholders as we work to craft legislation that will build upon and improve the systems we 
created in 1998 and continue to empower individuals in improving their careers.

WRITTEN OPENING STATEMENTOF CHAIRMAN BUCK MCKEON, SUBCOMMITTEE 
ON 21ST CENTURY COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE 
WORKFORCE  -  SEE APPENDIX A

Mr. McKeon.  I now yield to my good friend Congressman Kildee, Ranking Member of the 
Subcommittee, for any opening statement that he may have.


OPENING STATEMENT OF RANKING MEMBER DALE KILDEE, 
SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS, COMMITTEE 
ON EDUCATION AND THE WORKFORCE

Thank you, Mr. Chairman.  I am pleased to welcome Assistant Secretaries Pasternack and 
DeRocco and our other witnesses today.  I am looking forward to hearing their testimony.

	Our nation's system of job training and vocational rehabilitation is a key component of 
ensuring our nation's workers, the disabled and non-disabled alike, have the skills they need to 
secure long-lasting, high-paying employment.  I have toured a One-Stop center in my hometown of 
Flint, Michigan recently, and I have seen the positive impact that an accessible One-Stop center can 
have. While WIA and its One-Stop center system are relatively young, they have begun to show 
their success.  

Vocational rehabilitation is also an enormously critical and important program both for our 
nation as a whole and for adults with disabilities.  Our nation benefits from vocational 
rehabilitation programs when adults with disabilities are able to return to work and contribute to 
our economy.  Our entire country benefits from maximizing the potential of all our citizens.

	Unfortunately today's economic situation is grave.  We have 8.3 million individuals who are 
out of work.  We have some of the highest unemployment rates in a decade.  My own city of Flint, 
Michigan, and the area around there is certainly suffering.  We have growing budget deficits 
projected to top $300 billion this fiscal year, and our economy continues its downturn.  Workers 
and their families are struggling to secure high-paying, long-lasting employment.  These are 
serious, serious issues facing our Nation.

	In light of these economic conditions, I have grave concerns about the Administration's 
WIA reauthorization proposal.  Rather than constructively addressing the challenges facing the 
WIA system, I fear this proposal would significantly hamper the progress being made by many of 
our One-Stop centers.

	First, the Administration's proposal to block grant adult dislocated workers and employment 
service funding streams is shortsighted and likely to lead to reduced funding for job training.  I 
have been in Congress for 27 years, and over time I have seen block granting, and I have seen 
diminution of spending.  A program tends to lose its identity, and it loses its advocacy and then 
loses its spending.  I have seen this time and time again.  So whenever I see block grant, I have to 
go back to my own experience on that.  I would think the biggest diminution took place in 1981 
when David Stockman was OMB Director and we went into block grants.  So I have a concern 
about that.

	Second, the Administration's proposals to eliminate services for in-school youth and 
eliminate youth councils will result in less focus on these issues.  Our youngest workers are the 
hardest to employ.

	Third, WIA should not require mandatory partners to contribute a set percentage of their 
funds for One-Stop center operations while also eliminating their seat on local workforce boards.  I 
am particularly disappointed that the Administration would seek to carve out funding of mandatory 
partners such as vocational rehabilitation and adult education.  Funding increases for these 
programs have been paltry and even nonexistent over the years.  Instead we should be seeking to 
provide operational funding for the One-Stops through a separate line item.

	Lastly, we must make it easier for community colleges and other providers to participate in 
the One-Stop system.  Community colleges in general have cited burdensome reporting 
requirements.  We must alleviate these barriers while ensuring that we maintain accountability for 
the use of WIA funds.

	I am hopeful that the Administration's reauthorization ideas for the Rehabilitation Act are 
more positive than its proposal for WIA.  The top priority for reauthorization should be a dedicated 
funding stream to help State agencies work with school districts to make the transition for children 
with disabilities more effective.  Too often children with disabilities are left without any services 
once they leave our K-12 schools.  That is a deficiency we have to address.  This reauthorization 
must provide resources to address this issue.

	As we contemplate changes to these programs, it is critical for to us consider how those 
who receive services will be affected.  Under WIA we cannot lose sight of the need to serve 
unemployed workers.  However, we must also focus on how we can improve access and services to 
low-income individuals, minorities and women.  These populations are critical as we ensure that 
everyone has the opportunity to benefit from job training.

	Under vocational rehabilitation we cannot forget that 37 State agencies presently do not 
have the resources to serve all individuals with disabilities and are operating under an order of 
selection.  I believe that is intolerable.  The needs of individuals served by these programs should 
be our paramount concern.

	I would be remiss also if I did not express disappointment at this hearing being our only 
opportunity to discuss issues about the reauthorization of these programs.  We have been informed 
that the Committee intends to complete its work on these programs prior to the Easter break.  This 
does not leave sufficient time to examine the Administration's proposals.  It also effectively bars us 
from consideration of comments and suggestions that Chairman McKeon and I requested on a 
bipartisan basis earlier this year.

Mr. Chairman, I think the individuals who are served by these programs would be best 
served if we took sufficient time to hold additional hearings on these programs and allow for a 
more thoughtful reauthorization process.  This would allow us the time to carefully consider the 
impact of many changes being sought for these programs.  Mr. Chairman I wish we had more time.  
You and I have always worked well together.  We utilize time well together.  And if we can have 
more time, I think we could do a better job.  But thank you very much, Mr. Chairman.

Chairman McKeon.  Thank you, Mr. Kildee.

We have two panels of witnesses today.  I will begin by introducing the first panel.  The 
first witness is
 Assistant Secretary Emily DeRocco.  Before becoming the Assistant Secretary for the 
Employment and Training Administration at the Department of Labor, Ms. DeRocco was a Cabinet 
officer for both the Department of the Interior and the Department of Energy during the Reagan 
Administration.  That is pretty good experience.  She also served 10 years as the Executive Director 
for the National Association of State Workforce Agencies, and comes very well qualified to her 
position, as does Assistant Secretary Robert Pasternack, our second witness.

	Before serving as Assistant Secretary for Special Education and Rehabilitative Services, Dr. 
Pasternack was the State director for the New Mexico State Department of Education.  Dr. 
Pasternack also served as chair of the New Mexico Developmental Disabilities Plan and Council 
and as CEO of New Mexico's first licensed comprehensive children's community mental health 
center.

	Before the first panel begins their testimony, I would like to remind the Members that we 
will ask questions after the panel has testified.  In addition, Committee rule 2 imposes a 5-minute 
limit on all questions.

	Assistant Secretary DeRocco, you may begin, please.  

STATEMENT OF EMILY STOVER DeROCCO, ASSISTANT SECRETARY 
OF LABOR, EMPLOYMENT AND TRAINING ADMINISTRATION, U.S. 
DEPARTMENT OF LABOR, WASHINGTON, D.C.

Thank you, Chairman McKeon and Members of the Subcommittee.  Thank you for the 
opportunity to come before you today to testify on the Administration's Workforce Investment Act 
reauthorization proposal.  Our proposal is designed to strengthen the workforce investment system 
and its One-Stop career centers that States and local communities have developed to serve the 
workforce needs of businesses and individuals.

	As you know, 5 years ago under the strong leadership of this Subcommittee, Congress 
passed the Workforce Investment Act.  WIA was groundbreaking law that has dramatically 
improved the delivery of employment and training services nationwide, and it expires on 
September 30th, 2003.  

Over the past year the Department of Labor has widely consulted with stakeholders on how 
the workforce investment system could be further strengthened.  Our challenge is to make WIA 
more effective and responsive to the needs of local labor markets and to build on the innovations 
that have been developed.  We propose to do this in six ways.

	First, we want to create a more effective governance structure.  Too often the State and 
local boards are too large and unwieldy, and they have been mired in administrative detail rather 
than focused on strategic policy matters.  The Administration proposes to strengthen the role of 
State and local boards by changing the membership and refining their focus.  State boards should 
continue to be chaired by business, and a minimum set of membership requirements should consist 
of the State agency One-Stop partners, business and worker representatives, and State legislators.  
The State Board sets statewide policies and priorities for the delivery of workforce services through 
the One-Stop delivery system.

	Local boards would be streamlined by eliminating the partner programs to provide an 
increased voice at the local level for employers, community groups and worker advocates, making 
the boards more responsive and strategic.  And the requirement for a local youth council would 
become an optional feature.

	Second, the operational cost of the One-Stop system would be financed through dedicated 
One-Stop infrastructure funding.  Each partner program would contribute to the One-Stop 
infrastructure funding at either the federal level or in a State set-aside.  This would create a greater 
sense of partner ownership of the system and would alleviate a great deal of the current local 
negotiation around operations.  In addition, we believe this partner buy-in will better connect the 
One-Stop delivery system with other programs, such as adult education and TANF.

	Third, we do propose to combine the WIA Adult, Dislocated Worker and Wagner-Peyser 
funding streams into a single formula program.  This change would greatly aid program integration, 
help the system be more responsive to local labor market conditions, and result in streamlined 
program Administration at both the State and local level by reducing the current complexities of 
managing across three separate funding streams.

	We also propose to permit more flexibility in the delivery of services to adults.  Under 
current law some have misinterpreted the sequence of service requirements, and they believe that it 
means spending a certain amount of time in each level of service before moving on to the next.  
Under our proposal individuals would receive the services that are most appropriate for their 
unique needs.

	Additionally, we do propose to eliminate the burdens of eligible training provider 
requirements to incentivize more education and training providers to participate fully in the 
workforce investment system.

	Fourth, we propose to create a targeted approach to serving youth.  The Administration 
recommends focusing WIA resources on out-of-school youth through a targeted State formula 
program and challenge grants to cities and rural areas.

	Fifth, we propose to strength the performance accountability system and address many of 
the concerns we have heard from our State and local partners about the performance accountability 
provisions of WIA.  We want to focus on four performance measures for youth and four for adults.  
And as part of the coming performance measurement systems, these indicators would cut across all 
Federal job training programs and would have a common set of definitions and data sets.

	Finally, we propose to provide States with the flexibility to design and implement the most 
effective workforce system and program for their citizens.  The Administration recommends that 
statutory limitations for increased waiver authority be removed, and that the current Work-Flex in 
WIA be simplified to allow Governors to apply for block grant authority.  Under such authority, if 
granted, Governors would have discretion as to how to administer WIA Title I formula programs 
for adults and youth.

	In closing, we need to ensure our workforce investment system provides business and 
workers with the opportunities and tools they need to be successful.  I believe that the 
Administration's proposal for reforming the Workforce Investment Act will continue to steer our 
Nation's workforce system in this direction.  Secretary Chao and I look forward to working with 
this Subcommittee and with all Members as we move ahead.  This concludes my prepared remarks, 
and I look forward to answering your questions.


WRITTEN STATEMENT OF EMILY STOVER DeROCCO, ASSISTANT 
SECRETARY OF LABOR, EMPLOYMENT AND TRAINING 
ADMINISTRATION, U.S. DEPARTMENT OF LABOR, WASHINGTON, D.C.  -  
SEE APPENDIX B

Chairman McKeon.  Thank you very much.

Dr. Pasternack.

STATEMENT OF ROBERT H. PASTERNACK, ASSISTANT SECRETARY 
FOR SPECIAL EDUCATION AND REHABILITATIVE SERVICES, U.S. 
DEPARTMENT OF EDUCATION, WASHINGTON, D.C.

	Mr. Chairman, Members of the Subcommittee, thank you for the opportunity to appear 
before you today on behalf of the Department of Education and with my colleague Emily DeRocco, 
the Assistant Secretary of Labor for Employment and Training.  She and I have been working 
together to ensure that the workforce investment system provides accessible, effective and 
appropriate job training and employment services to all individuals, including those with 
disabilities.

	The New Freedom Initiative is one of the very first policy statements released by the 
President in his Administration.  The major goal of the New Freedom Initiative, as you know, sir, is 
increasing the ability of Americans with disabilities to integrate into the workforce.  Although 
many people with disabilities are obtaining jobs and remaining employed, the unemployment rate 
for people with disabilities is still unacceptably high.  The reauthorization of the Workforce 
Investment Act provides us an opportunity to strengthen and improve programs that will play an 
important role in improving employment and community integration outcomes for individuals with 
disabilities, to help fulfill the President's vision articulated in the New Freedom Initiative.  
Employment is vital to the full participation and so many other aspects of American life for 
individuals with disabilities.

	The Vocational Rehabilitation State Grants Program administered by the Department of 
Education is the primary Federal vehicle for assisting individuals with disabilities, particularly 
those with the most significant disabilities, to prepare for, obtain or retain employment consistent 
with their capabilities, interests and informed choice.  In 2004, this $2.7 billion program will 
provide a wide range of services to assist over 240,000 individuals with disabilities obtain 
meaningful, competitive, integrated employment.

	The Voc Rehab State Grants Program is currently a mandatory partner in the local One-
Stop service delivery system established under WIA.  WIA's One-Stop system connects 
employment, education and training services into a coherent network of resources designed to help 
individuals obtain jobs and assist employers to find qualified workers. Many of the individuals who 
are unemployed and seeking assistance at the One-Stops are people with disabilities.  The New 
Freedom Initiative notes the unemployment rate of the 54 million adults with disabilities continues 
to be at 70 percent, and unfortunately this rate has not changed in the last decade.

	As partners in the One-Stop centers, State voc rehab programs have contributed 
significantly to the enhancement of the One-Stop system and the expansion of its capabilities in 
meeting the needs of people with disabilities.  State VR agencies provide expertise relating to needs 
of people with disabilities in many of the local workforce areas.  Participation of the voc rehab 
agencies has also been instrumental in creating an awareness of the consumer population among 
the partners.

	In addition to providing assistance and evaluating and monitoring the accessibility of One-
Stop centers, local voc rehab programs through their mandatory partnerships continue to be 
instrumental in training other partner programs and their staff concerning the specialized assistance 
many people with disabilities need to become employable and maintain employment.  Although 
One-Stop centers have made progress in modifying their programs and facilities, barriers still 
remain, and the level of physical and programmatic accessibility varies widely among centers 
across the country.  Barriers to technology, such as the availability of appropriate computerized 
information systems, present an even larger challenge in some centers.  We are committed to 
working with our partners to ensure that individuals with disabilities can participate fully in the 
One-Stop system, allowing these individuals to obtain competitive, meaningful, integrated 
employment.

	The One-Stop system facilitates access to the services provided by the VR program.  There 
are some individuals with disabilities who with the accommodations or modifications can take 
advantage of the services One-Stops offer as intended in WIA.  However, there are many 
individuals with disabilities, particularly those with the most significant disabilities, whose 
complex needs require the expertise and specialized services of the State vocational rehabilitation 
program.  Most of the people served through the voc rehab program, about 87 percent of the people 
served in 2002, are individuals with the most significant disabilities.  The largest category of 
consumers of voc rehab is persons with mental or cognitive disabilities.  Due to their complex 
needs, they require specialized services such as various therapeutic services, adaptive technology, 
transportation devices, sign language interpretation such as you see occurring in this very hearing 
room, communication aids, personal assistance services, mobility training, and a variety of 
accommodations which occur at the workplace and also in the home. The State voc rehab program 
has an 80-year history of providing a wide range of rehabilitation training, employment placement 
and other more specialized services to our country's individuals with disabilities, and it has a proud 
history.  

Voc rehab agency staff members and their community-based providers receive specialized 
training and have tremendous collective expertise in assessing the comprehensive rehabilitation 
needs of individuals with disabilities and providing individualized programs of vocational 
rehabilitation to address those needs.  Given these specialized services, the cost of serving some of 
these individuals is typically higher than the cost of serving individuals with less significant 
disabilities.  Because of the cost of resource limitations, nearly one-half of all State voc rehab 
agencies are operating under an order of selection, as Congressman Kildee indicated in his opening 
remarks.

	Our partnership in WIA allows greater access to the traditional employment and training 
resources of One-Stop centers for individuals with less significant disabilities who might otherwise 
be forced to wait for services or not receive any employment services at all.  The voc rehab 
program has also benefited from closer coordination and collaboration among related workforce 
programs and services and from increased exposure to an array of additional service providers and 
resources, such as the individualized training accounts under the current WIA.

	The Department of Labor will be proposing changes to WIA that will strengthen the role of 
the State Workforce Investment Board in the management and coordination of services within each 
State.  Despite its significant size and unique needs of its consumers, many State VR programs 
have had only indirect representation on State Workforce Investment Boards as part of a larger 
umbrella agency.  We believe the VR program and the specialized employment needs of 
individuals with disabilities must be directly represented, particularly if the State Board is to have 
an enhanced management role.

	Finally, we must all work together to increase the participation of individuals in the 
competitive labor market.  I look forward to working with Members of this Committee and my 
WIA partners to improve the workforce investment system so that it can provide accessible, 
effective and appropriate services to all individuals, including those with disabilities.  I think the 
message, Mr. Chairman and Members of the Committee, is that disability is not an inability, and 
that people with disabilities can make profoundly important contributions to the workforce in this 
country if they are given the right kind of support services and accommodations.

	I look forward to answering any questions that you may have, and, again, thanks for the 
opportunity to be here today.



WRITTTEN STATEMENT OF ROBERT H. PASTERNACK, ASSISTANT 
SECRETARY FOR SPECIAL EDUCATION AND REHABILITATIVE 
SERVICES, U.S. DEPARTMENT OF EDUCATION, WASHINGTON, D.C.  -  SEE 
APPENDIX C
	
Chairman McKeon.  Thank you very much.

Ms. DeRocco, in your testimony you note that WIA attempted to move local boards away 
from operational details and towards strategic planning, yet that shift has not occurred in many 
areas.  Could you please talk in more detail about how your proposal will make such a shift occur?

Ms. DeRocco.  Absolutely, Mr. Chairman.

	As we have met with many local boards across the Nation and many representatives of 
business interests across the nation, their principal complaints on both sides have been that many 
businesses tried their hand at sitting on the local workforce investment board, but found that the 
agendas for discussions and meetings were mired in the administrative details of the cost allocation 
plans, or of the square footage in One-Stop career centers. They didn't have an opportunity to focus 
in with the limited time that those business members had available to contribute to the system on 
the kinds of strategic economic development planning that would make a workforce investment 
system a true player in economic development for communities across the country.

	Our proposal is to give the partner programs their administrative and policy voice on the 
State Board level. Then allow the business representatives, worker advocates, and community and 
educational institutions at the local level to focus all of their time and attention on understanding 
what the declining industries in the local economy are, what the growth industries are, what skill 
sets are required for good jobs at good pay in those growth industries, and then direct the workforce 
investment resources to assure that that is what we are training dislocated and unemployed workers 
to accomplish, a good job at good pay with a career pathway.  That seems to implement the vision 
of the Workforce Investment Act in a far better way than we have been able to with the large 
boards mired in administrative detail.

Chairman McKeon.  Thank you.

	In your proposal, taking the three programs down to the one funding stream, the State is 
going to give up some responsibility, and the local workforce investment boards are going to pick 
up more responsibility.  Are we in agreement that they will receive more funding?

Ms. DeRocco.  Actually the Administration's proposal for the allocation of the funding stream, Mr. 
Chairman, is a 50-50 split.  As you know, the current funding streams in the Wagner-Peyser is 100 
percent State; the adult funding stream is 15 percent State, 85 percent local; and the dislocated 
worker-funding stream is 40 percent State, 60 percent local.  When you combine them, we had to 
look at the most equitable way to achieve a balance among the State and local interests, and our 
proposal from the Administration is to have a 50-50 split.  

The 50 percent distributed to the locals would be 40 percent by statutory formula and an 
additional 10 percent by a formula that is designed to meet the economic and demographic 
characteristics of the local labor markets.  And then the state would have 50 percent at its disposal 
to provide rapid response services, to develop a statewide quality assurance for the delivery of 
services in the One-Stop, and also to determine precisely how to deliver the core services in the 
One-Stop that have in many cases been traditionally delivered by the employment services under 
Wagner-Peyser.

Chairman McKeon.  I took a pencil to those figures, and I came up with the local workforce 
boards losing money.  We are going to have to get together and talk about this because we are 
going to have to work together to pass something.

Ms. DeRocco.  I understand that.

Chairman McKeon.  I can't support those levels.  So we will have to come up with a compromise 
that we can work with, and we will have to do this quickly.  We have talked about this before.

Ms. DeRocco.  Yes, we have.

Chairman McKeon.  I just wanted to get it on the record because it is very important that with the 
increased responsibility of the local workforce investment board, they have more funding to carry 
on the additional responsibilities.

Ms. DeRocco.  If I may clarify, Mr. Chairman, if you take the three funding streams and run the 
current appropriations separately, the split is about 52 percent local, 48 percent State.  So we came 
as close as we could to the equity in our proposal that we send forward to you.  I understand that is 
an item would you like to work more on.  We look forward to working more with you.

Chairman McKeon.  I know one time I was helping one of my children with their homework, and 
the teacher said "jungle math" doesn't work.  But that is what I learned.  And we will look at the 
figures and see how we come out on that.

	My time is up, but I have some questions for Dr. Pasternack.  If we don't have another 
round, I will get them to you, and maybe you could answer me in writing.

Dr. Pasternack.  I would be happy to respond to any questions you have, Mr. Chairman.

Chairman McKeon.  Thank you very much.

	Mr. Kildee.

Mr. Kildee.  Thank you, Mr. Chairman.  I concur with you on your math and your principle on 
getting more money to the local level.  So we will work together on that.

	First of all, I want to welcome both of you here.  Through the years, Secretary Pasternack, I 
have enjoyed working with you and your predecessor doing some very, very good work, and look 
forward to working with you in the future.  I wish we could have a separate hearing on voc rehab 
itself, because I think that would be very helpful to us as we go through this reauthorization.

Secretary DeRocco, Congress time and time again has made the determination that 
dislocated workers have different job assistance needs than other job seekers, and has allocated 
separate funding and attention to their needs.  Why has the Administration decided to change 
Congress's priority for dislocated workers?

Ms. DeRocco.  We don't believe we are changing Congress's priority for dislocated workers.  In 
fact, in large measure what we have seen in the past year at many local boards and in many States 
with plant closings and mass layoffs occurring in communities across the country is the need for 
dislocated worker assistance. Funding has been significantly greater in many areas than the need 
for funding specific to the adult disadvantaged population and the WIA allows for some waiver 
authority for the Secretary of Labor.  The majority of waivers that have been requested have 
enabled the local boards and States to transfer funding between the adult funding stream and the 
dislocated worker funding stream to assure that they can meet the very specific needs of their local 
labor market.

	In general, the services available to both adults and dislocated workers under WIA include 
the core employment services, the intensive services of case management or assessment of skills 
and determination of employment plan, as well as training opportunities and supportive services 
that are made available to allow individuals in both the dislocated worker population and the adult 
population to access those training services.  So we see great similarities between the services that 
are available to the adult population and to dislocated workers, and we would like to extend those 
services to the greater population.

Mr. Kildee.  In my institutional memory of the Congress, we have seen differences in the needs of 
the dislocated worker, and the other job seekers.  We have seen this in the old industrial northern 
rust belt where people had worked for a number of years, say, in the auto industry, with good 
wages, mortgages on their home, children in college, and car payments. 

All job seekers have problems, but because dislocation is so disruptive to their lives 
Congress really felt that there should be a separate funding stream.  And I still am reluctant not to 
have some distinction made there. They do have different needs do they not?

Ms. DeRocco.  Every individual job seeker that comes into a One-Stop career center has unique 
needs in some respect. We serve eighteen million of the universal population that comes by for 
core services.  But the core and intensive and training services that WIA has made available will 
not change under the Administration's proposal.  There will still be those three sets of services that 
are available to every job seeker.  

Many dislocated workers, as you have noted, will require all three.  They will need 
information and the job referral assistance, but their skills may not be transferable in their local 
labor market.  They may need additional assessment of their skills and intensive services, and very 
definitely they may need training services to take on new skills that will make them marketable in 
the local labor market.

	We are absolutely committed to those dislocated workers and getting them back to work as 
quickly as possible.  We believe our proposal strengthens the local workforce boards and the local 
One-Stops' ability to provide those very important services to every job seeker that comes to the 
One-Stop career center.

Mr. Kildee.  Thank you very much.

Dr. Pasternack, what can be done to encourage a better transition from IDEA to voc rehab 
for those children with disabilities, because there is not a smooth transition very often?

Dr. Pasternack.  Well, Congressman, unfortunately you are right.  Twenty-eight years into the 
implementation of the IDEA, we should be doing a better job of helping students with disabilities 
transition from school to postsecondary opportunities, and employment and postsecondary 
education, if that is their choice.  

We are working on some proposals that we look forward to talking with you about during 
the upcoming reauthorization of the IDEA.  We are looking at joint monitoring between the Rehab 
Services Administration and the Office of Special Education programs as they go to States and we 
are looking at developing a closer working relationship between the voc rehab system and the 
special education system.  We are looking at issues where the independent living centers perhaps 
can play a stronger role in meeting the needs of younger people with disabilities than they currently 
do.  We are looking at perhaps some conforming language that might exist in the IDEA and the 
upcoming reauthorization of the Rehab Act.  We are looking at constantly building the capacity of 
people in special education and voc rehab to more effectively meet the needs of individuals with 
disabilities as they seek competitive, meaningful, integrated employment, entrepreneurship 
opportunities.

	One of the major issues we are concerned about, Congressman, is the fact that we still have 
way too many students with disabilities dropping out of school before they get a diploma.  As you 
well know, sir, someone's life trajectory is fundamentally different if they have a high school 
diploma compared to not having a high school diploma.  So, for example, in the last annual report 
that we submitted to Congress, the 23rd report, we documented that the graduation rate for students 
with disabilities has changed to the highest rate ever. However, we still have 40 percent of the 
students with disabilities in the 14 categories out of the 6-1/2 million kids currently receiving 
special education in this country that are leaving school without a standard diploma.  So we have to 
do a better job in making sure we accomplish the President's vision of leaving no child behind, and 
that we help these students receive the free appropriate public education in the least restrictive 
environment they are entitled to under the IDEA.

Mr. Kildee.  I am grateful you have given so much thought and attention to this.  This is a very 
grave concern of mine.  I am glad to see you focusing on that.  I appreciate that.

Chairman McKeon.  Thank you.

Mr. Ehlers.

Mr. Ehlers.  Thank you, Mr. Chairman.  

I am going to do something a little bit unusual.  I hope you don't mind.  But frequently at 
our hearings we have just a few people.  Today we have a lot of people.  Obviously they are deeply 
interested in this topic and very concerned about it.  But by the time they get a chance to speak, you 
will be gone.  So I am going to ask each of you if could give a quick summary of what the major 
objections to the Administration's proposals you hear from people are. Give your response to us as 
to why you think your proposal is, in fact, good and why the objections being raised are not 
particularly valid, and how they will be met by the legislation you are proposing.

	Dr. Pasternack, you have been getting the short end of the stick, so we will start with you 
and go the other way.

Dr. Pasternack.  Thank you, Congressman.  That is an excellent question.  I think that what I 
would like to do is just confine my remarks to the relationship between the voc rehab system and 
the Workforce Investment Act, which I think is the primary topic of today's hearing.

	I think the objection that we are hearing is that there hasn't been enough attention paid to 
the need for the State voc rehab agencies to be mandatory partners in the Workforce Investment 
Act system by increasing the capacity of the entire One-Stop system to more effectively meet the 
needs of people with disabilities. We need to make sure we differentiate the fact that One-Stops can 
do a wonderful job, and that the promise of the One-Stops is to help people with less significant 
disabilities who are looking for competitive, meaningful, integrated employment. People can come 
in the door and find that there is a capacity there to meet their needs, so we can maintain the 
integrity of the vocational rehabilitation system in meeting the needs of people with more 
significant disabilities.

	I have heard people say that we are trying to gut the voc rehab system by supporting the 
One-Stop system, and that is quite the contrary.  What we are trying to do is strengthen the ability 
of the One-Stop system to meet the needs of all people who are seeking employment and send the 
message that disability is not inability, and people with disabilities can make profoundly important 
contributions to the workforce if they are given the opportunity to work with the accommodations 
to which they are entitled under law.

	It is incumbent upon us as members of the voc rehab community to help build the capacity 
of the entire system to more effectively address the needs of people with disabilities who arrive at 
that system looking for work and who are currently unable to find the hope that they need.  I think 
that is probably the loudest objection we have heard to the work that we are doing to try to more 
effectively partner within the voc rehab system and the One-Stop system.

Mr. Ehlers.  Are you convinced that the money you are proposing will be sufficient to accomplish 
those tasks?

Dr. Pasternack.  Congressman, I think we need to look at a financial contribution that would help 
build the infrastructure of the workforce investment system and the One-Stop system to effectively 
meet the needs of all the people who are coming into the system looking for work.

	I think the Administration would support a decision where States have an opportunity to 
consider what is the best way for the mandatory partners to contribute.  To build the infrastructure 
that is required for these systems to be more effective is something that my colleague and I are 
currently discussing very actively and will hopefully be able to come to you in the very near future 
with more substantial information on the actual amounts.

Mr. Ehlers.  Thank you.

Secretary DeRocco, what are you hearing, and what is your response?

Ms. DeRocco.  First, let me just say how committed I am to the commitment you have just heard 
from Assistant Secretary Pasternack to make the One-Stop career center system an incredibly 
valuable and important tool for individuals with disability. That is something we are working so 
closely on together and we are both passionate about.

	The two concerns that I have heard most often that I would like to respond to today are, 
number one, Mr. Kildee's concern related to the consolidation of three funding streams.  And my 
response to that concern, in addition to what I was able to articulate in response to his question, is 
that we do believe that the consolidation of the three funding streams will allow our local 
workforce boards and One-Stops to better serve their local labor markets, businesses, and the job 
seekers who need the kinds of services that the One-Stop makes available.  This will ensure that the 
local levels are not constrained by federally set eligibility requirements or set percentage of dollars 
that can be used for certain individuals so that they have the freedom to serve the needs of their 
local community.  We believe that was the vision of the Workforce Investment Act, and we believe 
it is important to remove the remaining constraints in quality service to individuals at the local 
level.

	We also believe the consolidation will move to far greater integration of services.  
Particularly unfortunate in some States and communities, the employment service has not been well 
integrated as the provider of core services in the One-Stop career centers, and we believe that 
integration should occur and will occur under the Administration's proposal.

	And last, we believe that because we will be removing some additional administrative costs 
associated with managing three funding streams, there will be additional dollars available to 
actually fund training for the individuals the system is intended to serve. So that is one concern and 
three responses.

	The second concern we have heard is related to the Administration's proposal for focusing 
the State formula dollars on out-of-school youth as opposed to in-school youth.  And this was a 
very, very difficult area for us to come to grips with to determine an appropriate proposal for WIA 
dollars.  I have a personal passion for the vocational education needs of in-school youth, but what 
we have found is that the workforce investment system in many cases is the only answer for out-of-
school youth.  Very eloquent, well-versed and well-researched youth development experts 
counseled us that the three most at-risk populations of out-of-school youth are dropouts, court-
involved youth, and youth aging out of foster care.  If we could successfully target the available 
WIA youth resources to those young people, we would be contributing to their future, in fact 
opening doors to a future that they otherwise simply wouldn't have.

	So we feel committed to focusing the available resources through workforce investment 
youth activities on those three targeted at-risk youth populations.

Mr. Ehlers.  I have one last comment, Mr. Chairman.

	If you do succeed in your goal of moving local boards away from operational details and 
towards strategic planning, perhaps you can help the Congress do the same.  Thank you very much.

Chairman McKeon.  Thank you.

Mrs. McCarthy.

Mrs. McCarthy.  Thank you, Mr. Chairman.

	I want to follow up on the financing again because looking at the statistics that are put out 
by the Department of Labor, between 2002 and 2004 there is a cut of 12.46 percent.  We are asking 
the States to take on a burden that 48 of them are not going to be able to afford because all of them 
are in deficit now.  I am looking at New York State alone and these figures, which probably are a 
little bit higher right now, 6.3 percent as far as New York State unemployment, 8.4 percent of the 
labor force unemployed.  So we are going to have to work on those numbers, because if you 
actually want to really do the job, we can't hand an unfunded mandate back down to our States.

	Another thing as far as the summary of the Administration's WIA reauthorization proposal, 
this part bothers me under services states that priority services would go first to the unemployed, 
obviously we should do that, and if funds were limited, then to low-income individuals.  So we are 
not going to be able to service the people that really need to go to work, and how are you going to 
do this?  I am looking at the same numbers as my Chairman, and I don't know how you are going to 
put this program together.

	One of the other things that I see that you have zeroed out is for veteran's employment.  
Well, according to this Department of Labor source, veteran's employment is zeroed out between 
2002 and 2004.

Ms. DeRocco.  I am not responsible for the Veterans Employment and Training Service, but I 
guarantee they are not zeroed out.  What I think that is reflecting is there was an Administration 
proposal between fiscal year 2002 and in the President's 2003 budget to move the Veterans 
Employment Training Service to the Department of Veterans Affairs.  That did not happen.  There 
was no authorization for that.  So I can guarantee you they are fully funded in the President's 2004 
budget.  I am not sure what that paper reflects.

Mrs. McCarthy.  Let me follow up my question on veterans.  Number one, we don't have enough 
money in the veterans funding for all the services they need now.  So if you were going to turn it 
over to the Veterans Employment and Training Center, I would doubt that they would even have 
the money.  Unfortunately, if we are facing a war coming down the road, we are going to have 
more veterans than ever that will possibly need to be retrained.

Ms. DeRocco.  Absolutely.  We are not turning anyone away seeking advance employment and 
training services at this juncture.  There was a proposal to change department management in the 
2003 budget that didn't happen.  There is a fully functional Veterans Employment and Training 
Service now within the Department of Labor.  They actually deliver employment and training 
services through two sets of specialized staff.  They are called disabled veterans outreach 
personnel, DVOPs, and local veterans employment representatives, or LVERs.  And those two sets 
of staff actually work out of the One-Stop career centers to provide very focused attention on all 
veterans who come to the One-Stop career centers to access this array of services that is available 
through the Workforce Investment Act and other partner programs.

	So they are fully funded in the 2004 budget, and services continue to be delivered through 
those specialized staff.  In fact, there is a new law that gives a higher level of veteran's priority in 
all of our training programs to assure that they get a focused priority treatment for the availability 
of services; Congress just passed that law last year.  We are in the throes of implementing it with 
the help of the Veterans' Affairs Committees in both the House and Senate.

	As it relates to our consolidated grant proposal, when added together to support the 
consolidated funding stream the actual funding levels in the 2003 budget for each of the three is 
exactly the same amount.  There has been no cut in the WIA funding streams that we are proposing 
to consolidate.  Some of the differences you are seeing between FY 2002 and FY 2004 relate, for 
example, to one-time appropriations that occurred in 2002.  One, in fact, was a $32.5 million one-
time appropriation to New York City to respond to the terrorist attacks of September 11th.  There 
are several programs in there whose authorization expired in 2003; for example, the H1-B Training 
Grant Program and the National Skills Standards Board.

Mrs. McCarthy.  So basically you are saying there is an increase.

Ms. DeRocco.  I am saying there is no cut in the WIA programs between FY 2003 and FY 2004.

Mrs. McCarthy.  Is it flat?

Ms. DeRocco.  That is correct.

Mrs. McCarthy.  So you have put nothing in for inflation or anything else especially with the 
numbers of unemployed. If there is high unemployment, certainly these needed extra services are 
going to be on the lower end.

Ms. DeRocco.  What we do know is that the States are still carrying over.

Mrs. McCarthy.  States aren't going to have any money.

Ms. DeRocco.  They are carrying over about $1.7 billion in both of these programs, from 2002 to 
2003 and 2003 to 2004, according to our projections.

Mrs. McCarthy.  So you are saying the States have the money to do these programs.

Ms. DeRocco.  Yes, ma'am, I am, to maintain the level of services they are currently producing.

Mrs. McCarthy.  New York State is $10 billion in debt, and you are saying they have money left 
over.

Ms. DeRocco.  They have money in these programs to expend on the workers who are coming into 
the One-Stop career center system to access these services, but they are appropriated dollars for 
these purposes only, so the debt is apparently in other areas of the State budget.

Mrs. McCarthy.  If I may, Mr. Chairman, if you are going to do this in block grants, is there any 
guarantee that the money is going to go definitely for these services, or could the Governor have 
the flexibility to use that money towards their debt?

Ms. DeRocco.  No, ma'am, I would absolutely believe the funds must be used for services 
authorized under the Workforce Investment Act.

Mrs. McCarthy.  Thank you, Mr. Chairman.

Chairman McKeon.  I think that is something we will have to watch very carefully.  I know in our 
State of California the Governor has used monies from IDEA for other portions.  So we will have 
to watch that very carefully.

Mrs. McCarthy.  I agree with you, Mr. Chairman.  Thank you.

Chairman McKeon.  Mr. Johnson.

Mr. Johnson.  Thank you, Mr. Chairman.

	Her questions on veterans reminded me of one I have. In our area just this past week, 
veterans who are out of work were refused work training because they owned a home.  They had 
too much money.  Is that part of our law or not?

Ms. DeRocco.  No, sir, it is not part of the law.

Mr. Johnson.  So they should be helped under any circumstance if they need work.

Ms. DeRocco.  Yes, sir.

Mr. Johnson.  And veterans do have priority.

Ms. DeRocco.  They have priority of service for all employment and training programs under the 
Department of Labor's jurisdiction.

Mr. Johnson.  Okay.  I will jump their case when I get back there.

Ms. DeRocco.  So will I, if you tell me where they are.

Mr. Johnson.  You indicated in your testimony that you believe the boards are too large to 
effectively address all the concerns.  I have been to some of those board meetings.  I swear I don't 
know how they get anything done.  So what is your proposal to fix that?

Ms. DeRocco.  Our proposal is to focus the membership of the boards and thus their mission. At 
the State level we want to focus on a business-led board, but primarily on the partner programs in 
the One-Stop career center system to ensure that those partner programs are invested in the service 
delivery system and contributing to its success by integrating services to best serve the businesses 
and job seekers.

Mr. Johnson.  How are you going to reduce the size of the board?

Ms. DeRocco.  That actually does reduce the size of the board.  The current law has a lengthy list 
of required members on both the State and local boards.  We are suggesting that that be replaced 
with a minimum set of membership requirements at the State level, the partner programs, business 
worker advocate and State legislature representative. At the local level we suggest removing those 
17 partner programs and focusing on business education, worker advocates and community-based 
organizations.

Mr. Johnson.  That is the recommendation you are making.

Ms. DeRocco.  That is correct.

Mr. Johnson.  Okay.  You also state that while customized OJT is authorized, it is kind of 
bureaucratic.  How are you going to get around that?

Ms. DeRocco.  We are recommending making it clear in the legislation that at the State level, 
incumbent worker training and customized on-the-job training are permissible activities with State 
dollars, and at the local level 10 percent of their funds could be used likewise.  We are sure that the 
system is going to respond to a very important need that the employer community has identified for 
us, because it is through incumbent worker training that employers build the skills of their current 
workers and move them up the career ladders, opening up the door for new entry-level workers to 
come in.  That is the important part of the dynamics of the labor market that we want this system to 
encourage.

Mr. Johnson.  Thank you.

Dr. Pasternack, the Subcommittee is considering requiring mandatory partners to contribute 
a small percentage of their funds to help pay for infrastructure at the One-Stops.  Do you support 
that?

Dr. Pasternack.  Yes, Congressman.  We are talking about the fact that each partner needs to 
contribute a portion of funds to support the infrastructure of the system.  I think the amount is 
something that needs to be determined at the State level based on the different models that are 
occurring across the country currently.

Mr. Johnson.  So you believe in giving the States the authority to figure that out?

Dr. Pasternack.  Yes, sir.  That is the proposal that we are currently discussing with our colleagues 
at the Department of Labor.

Mr. Johnson.  That is super.  Thank you both very much.

	Thank you, Mr. Chairman.  I Yield back the balance of my time.

Chairman McKeon.  Thank you.

Mr. Tierney.

Mr. Tierney.  Thank you, Mr. Chairman.

	I thank both of you for testifying and for the work that you do.  I don't know whether to 
direct this to one or the other of you, both of you, or the Chairman.

Mr. Chairman, are we going to have a second round of questioning here today?

Chairman McKeon.  I think our rules say if you ask for a second round, we will have a second 
round.

Mr. Tierney.  Like you, I think I will have more questions than we will have time for.

	I am more than a little disturbed by the fact that the current Workforce Investment Act is 
authorized until September of 2003, and we are jamming this into a couple of weeks.  It smacks of 
a political effort to get some rhetoric out there about the state of our economy, and it doesn't sit 
well.  You just look around this room at the number of people that are involved and interested in 
this issue. 

I can tell you that when I went back home, I am the only Member from New England; we 
had a series of meetings throughout the region set up for people involved in this workforce 
investment system to meet and provide input on what they wanted to have in this bill.  And it is 
more than a little distressing to find that the Majority here, if it is the Majority, or the 
Administration is jamming this thing through on some political index as opposed to making sure 
we do the most thorough and appropriate job we can do.

	I would hope that we can do that in relatively short order, but I can tell you I don't think it is 
a good idea that we have so few hearings.

Chairman McKeon.  Is that a question for me?

Mr. Tierney.  No.  That is a statement, Mr. Chairman, and I hope you heard it, because I think the 
folks at home certainly will hear that they have been disenfranchised on this aspect or whatever.  
And I don't think it helps either of the Assistant Secretaries to do their jobs, because I think you are 
dedicated people who want to do the job right on this, and I think you are being put in a difficult 
position.

	Let me ask some of the questions that I have.  You are combining the Workforce 
Investment Act, Adult and Dislocated Worker and Wagner-Peyser funds into one stream in your 
proposal.  So my question would be are you going to have a caveat that decisions concerning the 
allocation of those funds will remain at the local level?  Or where is that going to be?

Ms. DeRocco.  Yes, there will be an allotment of the funding across the States, and then the States 
will have a statutory formula for distribution of the funds.  Within the State, the use of the funds is 
a local determination.

Mr. Tierney.  So they will still decide how to use the funds?

Ms. DeRocco.  Yes, absolutely.

Mr. Tierney.  Would you do me the favor of defining career scholarships in a little more detail for 
me, because I look at it in the materials you sent out, Assistant Secretary, and you say  "expanded 
use of individual training accounts no longer are going to be restricted to the WIA Title I Adult and 
Dislocated Workers." You want to expand that out.  Expand it out to what?  The only thing I can 
find is that you want to pay employers for the systems that they set up, employer-paid systems.  So 
is this some sort of an effort to pick up a cost that the employers should be picking up and taking 
that away from them?

Ms. DeRocco.  No, absolutely not.  We are trying to recognize that in today's economy, some 80 
percent of the jobs that are created, not enough are created, I grant you that, require some 
postsecondary education and training.  That means that individuals need a greater opportunity to 
access education and training.  In some instances it is longer-term training than the publicly funded 
workforce investment system has been equipped to provide in the past.  So it is an opportunity to 
assure that an individual employer can add funds of his or her own. An employer could contribute 
to an individual training account to assure the completion of training that would benefit both the 
worker and the employer, and to assure that other sources of public funds like Pell Grants could be 
added to the benefits of an individual training account.

Mr. Tierney.  Do you expect that to be spelled out more clearly in your final presentation?

Ms. DeRocco.  Yes.

Mr. Tierney.  I hope so, too.  I won't even get into the implications of your remarks about 
sometimes needing a little bit more education and training with respect to the personal 
reemployment accounts.  Those questions will go on for a while.

	You want to reduce performance measures from 17 to 8, saying that they are too 
burdensome and too numerous.  But my local boards tell me, in fact, they don't want to shed the 
ones that relate to consumer response, and that is what you are recommending, as far as I see it.  
What they say clearly is that those are the primary drivers of what they call continuous quality 
improvement at the One-Stop centers.  They are the drivers that give employers and job seekers the 
opportunity to feed back and indicate what it is they want.  So can you tell me what you are about 
on that?

Ms. DeRocco.  I absolutely agree with them and believe they should collect customer satisfaction 
responses and use them for their management responses if they deem that appropriate. The surveys 
were done in different ways: a roll-up nationally of customer satisfaction responses. Some were 
what one would call smile surveys; others were scientifically based labor market information-
driven surveys.  A national aggregate of that is not a helpful barometer for us to create any 
technical assistance or training through the system that would be useful.

	We think it is very useful at the local level, and we are particularly encouraged by the 
Massachusetts One-Stops who use them very effectively, and certainly wouldn't be precluded from 
using them.  We would encourage them to do so.  We are just not requiring them as a Federal 
barometer.

Mr. Tierney.  Can you explain to me in some detail your intentions with regard to the block grant?  
The way I read it in your memorandum is there is going to be very little local control left.  You will 
allow Governors to determine just how much they will provide to the sub-State entities, and then 
the Governor is going to select what partner programs are going to be involved and what array of 
services will be distributed.  So it appears in the memorandum that you are letting the Governors 
write their own program.

Ms. DeRocco.  No, that is not what we envision.  As Mr. McKeon said, obviously we have some 
work to do on the distribution, the quantity of funds, but under our proposal there would be a 
formula distribution of 40 percent of the funds directly to the locals, which they would determine 
how to use, where to use, whom to serve, and what their priorities would be.  An additional 10 
percent would be distributed directly to the locals based on economic and demographic factors in 
the State, which differ State by State, as you know.  And again, that percentage of funds would be 
available for local workforce boards to determine the investment priorities and the clientele.

Mr. Tierney.  But then you are giving 50 percent to the Governor.

Ms. DeRocco.  We are giving 50 percent of the consolidated grant to the Governor, which is about 
what he gets now under the separate funding streams.  Our breakout, as I said to the Chairman, was 
52/48.

Mr. Tierney.  Under the block grant program?

Ms. DeRocco.  We propose 50-50; keeping in mind those Governors who sought to provide more 
directly to the locals would have the flexibility to do that.

Mr. Tierney.  But they would also have the flexibility not to pass it along in that respect.  

Okay.  Thank you.

Chairman McKeon.  Thank you.

Mr. Gingrey.

Mr. Gingrey.  No questions.

Chairman McKeon.  Mr. Hinojosa.

Mr. Hinojosa.  Thank you, Mr. Chairman.

	I want to thank both of you for coming to testify before this Subcommittee.  We appreciate 
all the work that you do to handle this very difficult problem that we have nationally.

	My first question is addressed to Madam Secretary DeRocco.  I believe that we must get the 
community colleges more involved in this Workforce Investment Act.  I happen to be the founding 
chairman of a community college board of directors in south Texas, and they are a very important 
component of helping us with those who are unemployed or laid-off for different reasons. Would 
the Administration change the training provider requirements that have discouraged community 
colleges from serving as providers under WIA?

Ms. DeRocco.  Absolutely.  Part of our proposal is eliminate those burdensome eligible provider 
training provisions that have required community colleges to report outcomes on all students, not 
just those that are WIA-funded.  I have worked very closely with the community colleges across 
the country in the context of providers of choice for workforce development skills, and we have 
embarked upon numerous national models of how the workforce investment system, community 
colleges and businesses can really address the economic development needs in communities across 
the country.  So our proposal will address those reporting requirements.  We hope it will bring all 
community colleges back to the table as providers of services under WIA.

Mr. Hinojosa.  In the proposal that they submit to be considered as the providers, is there a way in 
which they could receive a few extra points that would give them an advantage so that we can get 
them back to the table, because we did a poor job here over the last few years.

Ms. DeRocco.  I believe from the many meetings I have had with community colleges, presidents 
and trustees across the country, they are just waiting for to us eliminate these burdensome 
requirements and are calling upon Congress and the Administration to do that.  Then they are ready 
to come to the table, to be board members at the local level to ensure that their thoughts about the 
education and training requirements in a community are fully voiced at the local workforce board 
level, and we want them there.  I think they are ready to come with that additional incentive.

Mr. Hinojosa.  All right.  

The second question that I have for you is, for example, in my area we have a lot of textile 
workers who lost their jobs after NAFTA was implemented.  So in this determination the dislocated 
workers have different job assistance needs than other job seekers have, and separate funding and 
attention allocated for their needs.  Why has the Administration decided to change Congress's 
priority for these dislocated workers?

Ms. DeRocco.  Again, we don't think we have changed your priority at all.  We have allowed the 
full array of services to be provided to dislocated workers all across the country under the 
consolidated funding treatment.  If anything, in some areas where dislocated workers are the 
primary population to be served, there will probably be more resources allocated by the local 
workforce boards for dislocated worker services, be they intensive services, training services or 
supportive services.  This gives the local communities and the local workforce investment boards 
the opportunity to really target and address those needs.

Mr. Hinojosa.  I want to address our concern for limited English proficient individuals who have 
worked for companies like Haggar and Levi's for 20 to 25 years, done a good job, been loyal 
workers, and then lost their jobs because the companies were moved to another country. Therefore, 
we ask for customized programs that would deal with their limited English proficiency so that they 
could be retrained for new jobs.

	What have you done about that?

Ms. DeRocco.  Numerous things.  One, we are working very closely with the Department of 
Education, because we do believe that the adult education program is a tremendous resource to 
address limited English proficiency and the identification of literacy and language skills to help 
adults reconnect with the workforce through the One-Stop career center system.

	Number two, we now have a task force at the Department of Labor dealing specifically with 
limited English proficiency to provide the State and local workforce system the kinds of tools they 
need to begin to address in a much more aggressive way the literacy and language skills that so 
many of our new workers to the American workforce require to be successful in our labor markets.

	We are dedicating resources, we are dedicating staff expertise, and we are working very 
closely with the Department of Education on the adult education program to make sure these 
resources are brought to this particular issue.

Mr. Hinojosa.  Because my time has run out, I will wait and see if during the second round I can 
ask Bob a question or two.  But give me the name of the program that the Department of Education 
uses for addressing this concern.

Ms. DeRocco.  The limited-English proficiency program?

Mr. Hinojosa.  Yes.

Ms. DeRocco.  We would like the adult education program to focus on English and language skills.

Mr. Hinojosa.  Let me tell you, adult education was not even funded by the Administration for 
2004.

Ms. DeRocco.  I believe adult education was.  You may be thinking of something else.

Mr. Hinojosa.  I would like somebody to look that up.  I was very concerned about programs that 
were zero or flat funded.  Our adult education proposals were hurt severely in the 2004 budget.

Ms. DeRocco.  We will get that information for you immediately.  I feel quite comfortable that 
adult education was funded, or there was a proposal for funding.

Mr. Hinojosa.  Thank you, Mr. Chairman.

Chairman McKeon.  Thank you.

	All right, everybody has had a chance on the first round, so I will begin the second round.

	In responding to the statement that was made that we were rushing too quickly on this, I 
guess the thing that I have learned in my 10 years here in Congress is either things go too slowly or 
too quickly.  Generally if the majority party is moving on something faster than the minority wants, 
they are moving too quickly; if they are moving slower than the minority wants, they are moving 
too slowly.

	I understand the frustration because I spent my first term in the minority.  There were times 
when I sat on this Committee and I felt as if we had no voice whatsoever and we might as well not 
have been here.

Mr. Tierney.  Will the gentleman yield for one second?

Chairman McKeon.  I will as soon as I am finished making my wonderful statement here.

Mr. Tierney.  You will be the judge of that, though, right?

Chairman McKeon.  I think political statements are constantly made on both sides, but I don't 
believe that we can always know the motives of people and why they are asking for something to 
move quickly.  I would prefer to say that we are moving quickly on this so that we can better help 
people.

	When we go through the whole legislative process, we have the Subcommittee, we have the 
Full Committee, we have the Floor, and after that we hope that the Senate will move, and then we 
go to Conference.  So there is quite a ways to go before we will get this bill done.  My goal is to 
finish it this year.  If it takes getting our side to finish before April so we can get the process 
moving quicker, I think that is better.

	I yield for one second to the gentleman from Massachusetts.

Mr. Tierney.  Mr. Chairman, it is nice of you to say those things, except that the way I understand 
your schedule, we are having a Subcommittee markup next week, Full Committee the week after, 
and to the Floor by mid-April.  In 1922, the JTPA Act had 22 hearings, and in 1998 the WIA act 
had 36 hearings.  One was a Democratic majority; the other was a Republican majority.  We spent 
quite a bit of detail on this.

	Again, this Act is in effect until September of 2003.  Twenty-two hearings, 36 hearings, and 
one hearing, there is a significant difference there.  We may have had four hearings total, I guess, 
over a period of time.  But there is a sharp distinction in those things. I think there are a number of 
people here and in our respective districts that would like a lot more input on that.  

I again express my disappointment. I have always had a good working relationship with the 
Chair.  You have been absolutely involved in this particular piece of legislation in the past.  You 
have had the hearings.  I think it is totally out of character, and we can ascribe whatever motives we 
want for it, but certainly I can only see one myself.  I think other people may also see that.

Chairman McKeon.  Now back to the questioning.

Assistant Secretary Pasternack, some of the questions I had for you were answered, but one 
of the highlights of the 1998 reauthorization was increasing consumer choice and control. In your 
opinion, has the system met this objective since it was passed in 1998?  Has it moved in that area?

Dr. Pasternack.  Mr. Chairman, I think we are clearly moving in that area under Olmsted, and we 
recognize the importance of providing choice for individuals with disabilities.  I think there is a 
significant importance in having a variety of options available for people to choose from.  I think 
we are truly committed to this notion of consumer empowerment and consumer choice.

	I think the President very clearly, in articulating the New Freedom Initiative, which he 
released in his first month in office, talks about the barriers that are still in place preventing 
Americans with disabilities from fully participating in American life.

	For example, if you have 70 percent of the 54 million adults with disabilities unemployed, it 
makes sense why less than 10 percent of individuals with disabilities own their own home.  If you 
cannot work and demonstrate to a bank a credit history, you cannot choose to own your own home.  
You cannot exercise one of the fundamental rights many Americans enjoy as part of fulfilling the 
American dream.

	We are really trying to move from this culture of dependence and helplessness, which 
seems to still be in play, to a culture of empowerment and independence.  That is something that 
we are clearly committed to working on in this Administration and in the rehabilitation community.

	Finally, as an example of what we are trying to do, we have struck a partnership between 
the Department of Education and the U.S. Chamber of Commerce and their 3 million members to 
make the business case that it is a good business decision to hire people with disabilities.

	I think for too long we have tried to appeal to people's sense of fair play, sympathy, and 
pity.  We are trying to present some data that it is a good business decision.  People with 
disabilities make good employees.  They are motivated, productive, and they have lower turnover 
rates, they are better for employee morale.

	There are things we can do to bring data and evidence to bear on the business community to 
convince them it is a good business decision. Also by creating a disability-friendly work 
environment, they attract some of the $175 billion that the 54 million adults with disabilities will 
have in disposable income this year that they would choose to spend in a business that might be 
considered disability friendly.

	I think all of that really relates to the notion of creating choice and opportunity and 
empowerment.  That is part of the mentorship proposal we have in the 2004 budget as well as in 
terms of showing people with disabilities that there are role models of success, some of whom are 
here in this room today, sir.

Chairman McKeon.  Thank you very much.

Mr. Kildee.

Mr. Kildee.  Thank you, Mr. Chairman.  I certainly agree that it is a good business decision to hire 
people with disabilities.

	Several years ago, I hired somebody on my staff that did extraordinarily great work for me 
and is now working over in your shop, and it cost me less than $4 to make an adjustment to the 
desk for that hiring.  I got someone who has done so much to make this country a better country, 
and to make education better.  So it is a good business decision, I think, to make sure these people 
have meaningful employment.

	Just prior to Thanksgiving, Dr. Pasternack, the Administration initially released the findings 
of a longitudinal study on vocational rehabilitation mandated by the 1992 authorization.  My 
understanding is that the results of this study were subsequently pulled back.  Why is the 
Administration not releasing this data, since it speaks to the largely positive work of State rehab 
programs?

Dr. Pasternack.  Thank you, Congressman Kildee.  Those data are clearly important, and currently 
those documents are in the clearance process within the Department.  I am sure that as soon as they 
work their way through the Department clearance process, we will look forward to releasing them 
to you and to the American public that are entitled to see that data.  I think it is just a matter of the 
Department doing what it does to move those documents through the clearance process that has 
been established by the Secretary's office.

Mr. Kildee.  Does that clearance process include the dark hole of the OMB?

Dr. Pasternack.  Congressman Kildee, we look forward to working with our colleagues at the 
Office of Management and Budget, and to their fine help in reviewing a variety of documents that 
we issue, sir.

Mr. Kildee.  Thank you very much, Doctor.

Dr. Pasternack.  Thank you.

Chairman McKeon.  Mr. Tierney.

Mr. Tierney.  Thank you, Mr. Chairman.

	There is a part of your memorandum, Mr. Undersecretary, which says that the Secretary's 
reallotment should be based on expenditures, not obligations.

	Would you share an example with me of how that might otherwise be the case now?  
Someone would go out and draw your attention to this, and how would you take this situation 
under your consideration and how would it work differently?

Ms. DeRocco.  Sure.  The issue of expenditures versus obligations has been much discussed since, 
apparently, the time WIA was passed in the Department, and the State and local systems tended to 
have different definitions, different reporting requirements, from local to State and State to the 
Federal Government.

	It became of great concern as we realized what was happening, which is that the 
Department did not give good guidance on exactly what it was requesting for financial 
management purposes under the Workforce Investment Act.

	The financial management experts in the Federal Government tell me that the use of 
expenditures is the appropriate accounting measure that should be used for Federal financial 
reports.  Most of the folks in the system I have talked to have told us to simply make it clear in 
WIA reauthorization what you need and how you define it, how we can report appropriately, and 
then all of us as a system, local, State and Federal, can have a better handle on the amount of 
money currently available in the system to provide services. That is the amount of money that 
might be in the budgetary state of an obligation under an individual training account; at what point 
it is incumbent upon the local board and One-Stop operator to check on whether or not that 
obligation has turned into an expense or is going to turn into an expense; and then to appropriately 
report those, so we are all speaking the same language.

	It is our intention to make that clear.  In the reauthorization we have proposed that we use 
expenditures.  I am quite certain that the local boards will want to continue to use some obligating 
information in order to manage their accounts.  That will be entirely appropriate.

	But the reporting to us will be on an expenditure basis pursuant to our proposal, at least, and 
that will be helpful to us in responding to the very difficult questions of our colleagues at the Office 
of Management and Budget.

Mr. Tierney.  How do you propose that is going to impact the local boards that have money 
obligated but not yet expended?

Ms. DeRocco.  Only in that they will be able to make clear to us what the actual expenditures are, 
and we will be better able to report to our colleagues within the Administration and on Capitol Hill.

Mr. Tierney.  I want to visit the block grant again, because I am not clear.

	In your memorandum, you talk about simplifying and allowing a State option where 
governors could apply for block grant authority under reauthorization.  Under that option, 
governors would have complete discretion on how to administer WIA Title I formula programs, 
Adult and Youth.  The governors would determine some State funding and governing structures.  
The block grants would be guided by a set of guiding parameters.  However, governors would have 
the responsibility for selecting partner programs and the array of services.  Governors 
administering the programs in the State options would just submit a plan.

	To me that reads as if you are giving all the money to the governors, and then the governors 
are deciding who the partner program is going to be, what the WIA services that will be provided 
are going to be, and who among the local entities are going to get the money that the Federal 
Government has given to the governor to disburse, as opposed to all the other scenarios that you 
outlined earlier.

Ms. DeRocco.  I am sorry; I thought you were referring to the consolidated grant when you asked 
the question.

	We are proposing that there be an option in the reauthorized WIA that would position the 
WIA system to be looked at in the same manner in which Congress and the Administration looked 
at TANF, which was a block grant authority.  If the governor submitted a plan, spoke to how he or 
she was going to meet the performance outcomes required by the Congress in the Workforce 
Investment Act and provided the services that are authorized in the Workforce Investment Act, that 
plan would then be subject to review and approval before a block grant were issued.

	This is not unlike the Work-Flex provisions that are in the current WIA, that to the best of 
my knowledge no governor has taken advantage of.  Certainly while I have been there, there have 
been no applications.

Mr. Tierney.  Notwithstanding the popularity, you still want to enlarge those programs?

Ms. DeRocco.  Notwithstanding the popularity, under TANF there seems to be substantial 
agreement among all the authors and implementers of TANF that the block grant approach is what 
made that program work in States all across the country.

Mr. Tierney.  Apparently, it is obviously not what is making this program work, because people 
seem quite comfortable working under the current system.

Ms. DeRocco.  Perhaps, but we have a whole new slate of governors, too, so there may be a 
different approach to working within the workforce investment system and its implementation 
within States.  So we simply wanted to propose in our reauthorization that that option be available 
for the application of governors.

Mr. Tierney.  You are not trying to infer that the governors have initiated this path?  They have 
not asked for this.  I am not aware of any formal requests from the governors' associations or even 
any number of individual governors who have asked for this; are you?

Ms. DeRocco.  I have talked with governors who have indicated that they would be interested in at 
least considering such an option.

Mr. Tierney.  So you proposed it and they said it might be considered, but there is not a 
groundswell of governors coming up and beating you over the head to ask you for this.

Ms. DeRocco.  Thank heavens, no.

Mr. Tierney.  It is interesting that you are offering something nobody is even pushing for.  My 
time is up.

Chairman McKeon.  Mr. Hinojosa, we have the answer to the question about the education funds.

	In the previous 2003 budget, there was a line for Adult Education State Grants.  The 
Administration felt there needed to be more emphasis put on the basics of reading and language 
skills, which it seems to me, would answer the question you had.

	They added the line "Adult Basic and Literacy Education State grants," and they increased 
the funding from $575 million to $584.3 million.

Chairman McKeon.  I recognize the gentleman.

Mr. Hinojosa.  Thank you, Mr. Chairman.

	I would like to comment on that concern that I expressed when my time ran out.  Then I 
will ask a question of Assistant Secretary Bob Pasternack.

	The point that concerns me is that there are millions of people waiting for training.  When 
we cut the $8 million that went to helping people with learning basic English, or limited English-
proficient candidates, that brought it down to $575 million that was available in the 2003 budget.

	In the 2004 budget, knowing that we are serving only a small percentage of those eligible, 
you only asked for $9 million more than we are getting in 2003.  That is of grave concern as the 
unemployment continues to soar, because just remember, a year ago in the State of the Union 
Address, the President said my policies are going to create jobs. A year later, we lost 2 million jobs, 
and in the last 2 weeks we lost another half a million jobs.  And at the rate the stock market is 
plummeting, a bunch of companies are closing up and laying off people. How can a $9 million 
increase take care of this skyrocketing unemployment?

Ms. DeRocco.  One of the important factors to remember when looking at the Workforce 
Investment Act is the array of One-Stop partners. The adult education program is under the 
jurisdiction of the Department of Education, so it is not within my jurisdiction to request specific 
funding for that program. However, it is an important partner in the One-Stop career center system 
that provides its resources, its expertise, and its services to workers.

	Under the Workforce Investment Act Title I training programs, we also can include 
language and literacy skills for immigrant and new workers, and those training providers are 
eligible training providers under the Workforce Investment Act.

	I think it is clear in many local labor markets around the country, and it is particularly true 
in Texas, Florida, and in California, that this is a key area where the local workforce boards are 
focusing a significant amount of their attention, their resources, and their understanding that this is 
what workers need in their local labor market.

Mr. Hinojosa.  Just let the record show that it is inadequate funding, and the reason for great 
concern that caused so many people to be here.

	The first question that I have for Bob is that vocational rehab only has sufficient funding for 
1.2 million individuals with disabilities each year.  Yet the most recent estimates tell us there are 54 
million individuals with disabilities.  So why has the Administration not sought additional funding 
for this program, as I voiced on the other one?

Dr. Pasternack.  Thank you, Congressman.  First of all, the mission of the vocational 
rehabilitation system is to focus on the individuals with the most significant disabilities.  I think 
that the figure we use in terms of the 54 million adults with disabilities includes a number of 
individuals who don't need the specialized services that are available in the vocational 
rehabilitation system.

	It is a mandatory funded program, so the CPI request was reflected in the President's 2004 
budget.  I think that the issue for us, with the money that is available, is to spend that money more 
effectively, and to make sure that the kinds of services that are being provided are evidence-based, 
and that in fact we are encouraging people to use the services that we know work, and that we are 
achieving greater accountability for results in the services that are provided.

Mr. Hinojosa.  Of these 1.2 million individuals that you say you are servicing because they have 
the greatest disabilities, what about the 37 States that don't even offer it because there is no money?

Dr. Pasternack.  There are 80 programs in five States that are funded through the vocational 
rehabilitation program, because there are some programs that focus on just the older blind.

Mr. Hinojosa.  What percentage of the 1.2 million eligible is served?

Dr. Pasternack.  I would have to get back to you with the specific numbers on that, Congressman.  
I can tell you that in the study we did, there were approximate 230,000 individuals with significant 
disabilities of that 1.2 million that were served last year who found competitive, gainful 
employment.

Mr. Hinojosa.  If you can get me that number, I would like to know what percentage you are 
serving.

	The last question is on children with disabilities who leave K-12 programs in public schools 
that are most likely to need additional services through vocational rehab to make sure they obtain 
employment. Why hasn't the Administration advocated for additional funding for that group of 
young people?

Dr. Pasternack.  As you know, Congressman, the President's 2004 budget contains another 
$1 billion.  In 2003 he is proposing the largest single Presidential requested increase in IDEA 
funding in the 28-year history of the program.  So I believe the President should be commended for 
demonstrating his significant commitment to keeping the IDEA strong.

	I know that time is precious, but since you are asking the important question about 
community colleges, I just wanted to tell you something we are doing.  Under the IDEA right now, 
it is permissible to have concurrent enrollments of students with disabilities in high school and 
community colleges.

	I met with 25 presidents from community colleges recently to talk about experimenting 
with a program where we have concurrent enrollment.  As you know, if a student graduates from 
high school, it terminates their eligibility for identified services.  We are looking at piloting some 
programs where a student would be concurrently enrolled in high school and the community 
college, and not just get their diploma, but receive services both through the high school and the 
community college as a way of increasing what is now the highest level of postsecondary 
participation ever, 9 percent.

	However, this Administration believes that is not enough, and if students with disabilities 
want to go on to postsecondary opportunities, we ought to be giving them those kinds of 
opportunities.

Mr. Hinojosa.  I am very familiar with concurrent enrollment and the community colleges working 
with the school districts.  I certainly endorse that, and I would support it.

Dr. Pasternack.  Thank you, Congressman.

Mr. Hinojosa.  Thank you, Mr. Chairman.

Chairman McKeon.  Thank you, Assistant Secretary DeRocco and Assistant Secretary 
Pasternack.  I think you have done an outstanding job of answering our questions.  I appreciate 
your being here.  I appreciate your valuable testimony.

	You may now step down and I will ask the second panel to take their seats. We will take a 
short recess while that happens.


[Recess]


Chairman McKeon.  The Subcommittee will come to order.  We will now be introducing the 
second panel of witnesses.

	Our first witness today is Thomas J. White.  Mr. White serves as President and Chief 
Executive Officer of the Durham, North Carolina, Chamber of Commerce.  He received his 
undergraduate degree in English from Duke University and his master of public affairs degree from 
North Carolina State University.  Mr. White has served as President of the Durham Day Care 
Council and Chairman of the Durham United Way Campaign.

	Our second witness is Mr. John Twomey, President of the National Workforce Association, 
Washington, D.C.  Mr. Toomey also serves as the Executive Director of the New York Association 
of Training and Employment Professionals.  From 1977 until 1978, he served as Assistant Director 
and Project Director of the Northwest Bronx Community and Clergy Coalition.  He received his 
Bachelor of Arts degree in communication from Fordham University in 1974.

	Next we have Steven Savner.  Mr. Savner is a Senior Staff Attorney at the Center for Law 
and Social Policy, Washington, D.C.  Mr. Savner has also served at the Massachusetts Law Reform 
Institute in Boston, and he has worked as an attorney for the National Employment Law Project in 
New York City.

	I understand Mr. Ehlers would like to introduce our fourth witness.  I yield to the gentleman 
from Michigan, Mr. Ehlers, for that purpose.

Mr. Ehlers.  Thank you for yielding, Mr. Chairman.  I understand the next witness is also a close 
friend of Mr. Kildee, so I will do the courtesy of yielding him time after my introduction if he 
wishes to add a comment or two.

	It is my pleasure today to introduce one of my constituents, Betty Shaw-Henderson, who is 
from the greater Grand Rapids area and is the District Manager, Michigan Department of Career 
Development and Rehabilitation Services, which provides vocational rehabilitation services to 
approximately 2,100 customers with disabilities, as well as providing business services to the 
employer community in the Grand Rapids area.

	She has provided extensive national and statewide leadership in the vocational 
rehabilitation profession.  She has served as President of the Michigan Rehabilitation Association, 
and as President of the National Rehabilitation Association, so she comes with great credentials, 
and we are eager to hear what she has to put on the record for us.

	I want to thank Ms. Shaw-Henderson for coming here to testify.  I will be pleased to yield 
briefly to Mr. Kildee.

Mr. Kildee.  I thank the gentleman for yielding.  

Betty Shaw-Henderson is one of those people that, whatever she has done for people, those 
people are so much better off.  She served so well in the Flint area community.  We love her dearly 
over there. I can truly say that there are certain people that I have met, and from knowing them, 
have emerged as a better person.  I am certainly a better person for knowing Betty Shaw-
Henderson.  

Thank you, Betty.

Mr. Ehlers.  Reclaiming my time, we are very proud to have you here today, Betty.  I yield back 
the balance of my time.

Chairman McKeon.  Thank you, Mr. Ehlers and Mr. Kildee.

Mr. White, you may now begin.


STATEMENT OF THOMAS J. WHITE, PRESIDENT AND CEO, GREATER 
DURHAM CHAMBER OF COMMERCE, DURHAM, NC

Thank you, Mr. Chairman, Members of the Subcommittee.

	In addition to serving as President and Chief Executive Officer of the Greater Durham 
Chamber of Commerce, I have the pleasure and privilege of serving on our local Workforce 
Development Board and its Executive Committee.  For most of my 25-year career with our 
Chamber, I have been involved in economic development, recruiting companies to our community 
and helping existing enterprise expand.

	I have also enjoyed serving for 4 years as the Chamber's Director of the Private Sector 
Initiative Program, a unique partnership between the city of Durham and our Chamber that sought 
to promote extensive business involvement in both our CETA and JTPA programs.

	Very briefly, I would like to cite just a few specific examples of how the workforce 
development system is integrally important to economic development.  We were recognized by 
President Ronald Reagan in 1995 for our role in implementation of a Ford Foundation program 
entitled Women in Electronics, a public/private collaboration under the JTPA Private Industry 
Council, that helped welfare recipients develop academic competencies and occupational skills to 
secure good-paying jobs with outstanding companies such as IBM, General Electric, Northern 
Telecom, all anchor tenants in our Research Triangle Park.	

That unique, effective partnership reinforced our organizations firmly held conviction that 
business can and should play a key role in the operation of our Nation's employment and training 
system. We were able to forge an effective partnership comprised of public welfare agency officials 
and private human resource officials that led to hundreds of economically-disadvantaged citizens 
securing good jobs at good wages.

	In late 1998, the year of the implementation of the Workforce Investment Act, our Chamber 
announced that Aisin AW, a Japanese firm manufacturing transmissions for Toyota, had selected 
Durham for a $100 million investment comprised of a 125-acre land purchase, the construction of a 
300,000 square foot production facility, and most importantly, the creation of 300 good-paying 
jobs.

	Last June, the company broke ground on phase 2 of their project, adding another $160 
million worth of capital and 450 additional jobs.  The company has a sole source agreement with 
our Employment Security Commission, which happens to be our One-Stop job link career center 
operator, for employee recruitment, and our community college, which will conduct all of the 
company's pre-employment and occupational skills classroom training at a satellite campus near 
Aisin AW's facility.

	Here is the essential point of this mini-case study:  Both the site selection consultants and 
the corporate human resource managers indicated that the workforce development resource 
provision was the key factor in their determination to both locate in Durham, as well as to expand.

	We have been most fortunate to be selected by the U.S. Chamber of Commerce Center for 
Workforce Preparation for participation in the Workforce Innovation Networks demonstration 
project.  The superior technical assistance and professional support services offered us by the center 
staff have enabled us to establish and enhance this economic development/employment and 
training linkage to the maximum benefit of not only our corporate prospects and our Chamber 
members, but also our WIA public constituencies, including dislocated workers, TANF recipients, 
at-risk youth, and other workforce participants who stand to benefit from a truly effective 
public/private partnership.

	That is what is so commendable about the centers' WINs demonstration that is reminiscent 
of the underlying principles of our success in that "Women in Electronics" demonstration under 
JTPA.  When the U.S. Chamber and the National Association of Manufacturers partners with the 
Ford Foundation, the Annie Casey Foundation, and Jobs for the Future in a spirit of common cause, 
the coalescence of those organizations and institutions has the capacity to produce some very 
impressive outcomes; in this instance, helping low-income workers gain access to the new jobs 
being created as a result of effective Chamber-driven economic development.

	The lesson in these demonstration projects is that our communities, our States, and our 
Nation are far more competitive and productive when we design and operate a workforce system 
that includes business and government as full-fledged partners. We stand a far better chance of 
achieving success, as measured by tax base expansion, capital investment, job creation, and poverty 
reduction, when our Nation's workforce system is fully integrated with our economic development 
system so that all our citizens can take advantage of and reap the benefit from the economic 
opportunities created by new and expanding industry.

	Thank you, Mr. Chairman.

Chairman McKeon.  Thank you, Mr. White.


WRITTEN STATEMENT OF THOMAS J. WHITE, PRESIDENT AND CEO, 
GREATER DURHAM CHAMBER OF COMMERCE, DURHAM, NC  -  SEE 
APPENDIX D

	
Chairman McKeon.  Mr. Twomey.


STATEMENT OF JOHN TWOMEY, PRESIDENT, NATIONAL 
WORKFORCE ASSOCIATION, WASHINGTON, D.C.

Thank you, Mr. Chairman, Mr. Kildee, distinguished Members of the Subcommittee.  I 
apologize for being a little raspy.  It was 87 degrees cooler when I left Albany this morning than 
when the Chairman left home yesterday.

	In New York in my everyday job, as the Chairman mentioned, I am director of our 
workforce association.  We represent 33 areas, 72 pretty eclectic groups across a full range of 
associate members.  Since 2001, the workforce board chairs have asked our association to help 
organize them.

	I have been asked in my remarks today to briefly address two issues, an assessment on the 
implementation progress of the Workforce Investment Act, and the National Workforce 
Association's reauthorization positions.

	I would like to applaud Chairman McKeon and Mr. Kildee as authors of the Workforce 
Investment Act.  I think it is a very visionary piece of legislation that is trying to change 40 years of 
a completely supply-side federal workforce policy focused only on the job seeker, to a two-
customer system:  job seekers and businesses.

	I think that we recognize the need for a One-Stop system in this country.  I think, whether 
we like it or not, it is true that people are changing jobs, and often careers, every 5 years.  We do 
need that system.

	The National Workforce Association would urge the Subcommittee to build on a locally 
driven, private sector-led vision.  We think it took a while for workforce boards and One-Stops to 
get up and running, to get traction.  We would respectfully urge the Subcommittee to look at 
tweaking, not major overhauls.  We think the system is progressing well.  The Government 
Accounting Office has said the workforce boards have gone beyond their required mandate. In 
terms of One-Stops, integration has improved.  We have a long way to go.  I think there is a 
movement on a continuum from collocation to collaboration and ultimately to integration.

	One of the biggest challenges since the passage of the Workforce Investment Act is 
resource allocation.  Because there have not been enough resources, there has been reduction in 
training and there has been a disproportionate pull on the adult money.  That adult money, Title I 
WIA money, is the only money that can be used that comes to the locals for upgrading low-wage 
workers and also for universal access into a One-Stop, so you are pulled to use it for infrastructure 
instead of providing more training that we desperately need, particularly in these times of high 
unemployment.

	My colleagues in States like Michigan, Massachusetts, Texas, and Florida told me it took 
about 3 years to really get up and running and get the kinks out.  We only have two full years of 
reporting in most of the country.

	In terms of business services, this is a major change from all its predecessor legislation.  
Unlike JTPA, under the Workforce Investment Act we can work with people while they are 
working.  In States and many local areas there has been very innovative incumbent worker training, 
excellent sector approaches, identification of key industry clusters, and career ladders.

	In New York State, with the governor's State WIA funds (15 %), we have done some 
wonderful work with manufacturers, upgrading skills and keeping the firms competitive. High tech 
firms were aided. And local workforce areas received funds to conduct local skills-gap analyses.

	I don't think there has been enough training.  I agree with the earlier comments that we need 
to make the list less burdensome for community colleges, but a lot of that also is just because 
money has been diverted.

	In terms of youth, I think it is a new system.  It has taken a while to figure out the full array 
of services.  There is definitely not the money there for the task involved.  In this economic 
downturn, research has shown that half of all job loss is for persons less than 25 years of age.

	Finally, the number one priority of the National Workforce Association would be to find 
some way to fund the One-Stop infrastructure.  I think it was a good attempt to do it through 
negotiations, it just did not pan out.  Trying to negotiate these agreements and then doing cost 
allocations and reconciliations has not yielded money and it has diverted a tremendous amount of 
energy and time that could have gone into improved services for job seekers and businesses.

	We heard earlier today that you are struggling with how to do this, whether by block grant, 
or funding off the top.  There are, of course, political pitfalls in both.  I think that we would be 
willing to work with you in any way we could to try to make this work.  It is probably one of the 
biggest challenges.

	I am not going to go into our differences on expenditures obligation with my friend and 
colleague, the Assistant Secretary, too much.  Let me just say that the National Workforce 
Association agrees with GAO that States and locals are spending their money well within the 
statutory time frame, and will continue to do so.

	In governance, we want to see stronger business-led workforce investment boards.  We 
agree that they should be more into policy development, and getting memoranda of understanding; 
moving them to the partner table will do that.  Unfortunately, the workforce boards have very 
robust rhetoric and direct control over these programs.

	I am going to stop there.  Thank you for the opportunity to be here today to comment, and 
for your work on this legislation, and your support of local control.

	Thank you.



WRITTEN STATEMENT OF JOHN TWOMEY, PRESIDENT, NATIONAL 
WORKFORCE ASSOCIATION, WASHINGTON, D.C.  -  SEE APPENDIX E


Chairman McKeon.  Thank you, Mr. Twomey.
	
Mr. Savner.


STATEMENT OF STEVEN SAVNER, SENIOR STAFF ATTORNEY, 
CENTER FOR LAW AND SOCIAL POLICY, WASHINGTON, D.C.

Mr. Chairman, Mr. Kildee, Members of the Subcommittee, thank you very much for 
inviting me to testify today.

	I am at the Center for Law and Social Policy, CLASP, which is a nonprofit.  We do work on 
the Workforce Investment Act.  We look at the research, and we often visit and talk with 
administrators, program operators, and individuals who are affected by these programs; so we have 
been following the implementation of the Workforce Investment Act very closely over the last 
several years.

	Just following up on what Mr. Twomey mentioned, it is important to appreciate we really 
have only about 2-1/2 years of experience with the fully phased-in Workforce Investment Act.  We 
think for that reason, because of the limited information we have, Congress should move cautiously 
in making further changes to the Act at this time, and that the areas of change that Congress does 
move on should be limited to those where there is a sound basis in our experience for the proposed 
change and broad agreement that there is need for the change.

	Within this framework, though, we do think the data suggests several important challenges 
Congress should address.  First is the problem of the dramatic decline in training we have seen.  In 
program year 2000, it appears that between 85,000 and 100,000 adults and dislocated workers 
received training.  The 2001 data, which was attached to Assistant Secretary DeRocco's testimony 
today, does suggest that there was an increase, but we are still far behind the over 300,000 people 
that received training in 1998 under the Job Training Partnership Act, so we think Congress should 
move to address this.  I will suggest some options for that.

	We also think that we do need to address the problem of providers dropping out of the 
system because the reporting requirements are too burdensome for them to comply with the eligible 
provider certification system.

	To respond to those two major challenges, first we think more funding needs to be made 
available for training services.  Again, whether we separate out funding for One-Stops or separate 
out money for training, more resources are needed to do the job that we need to do in terms of the 
One-Stop system and to provide further training.

	We would much prefer to see the $3.6 billion that is going into personal reemployment 
accounts be used to provide unemployment insurance extensions under the current system and that 
there are funds available to target for additional training for adults and dislocated workers.

	We also think we can increase the number of people getting training by eliminating the 
sequential eligibility rules.  We applaud the Administration for including that initiative in their 
proposal.

	Finally, with regard to provider certification, rather than reducing the requirements around 
certification, what we would prefer to see is for the system to take up the cost of reporting and 
collecting that information.  The information that providers are supposed to make available is 
critical to the success of the individual training accounts and to knowledgeable consumers being 
able to make choices, so we much prefer to see the system pay for that, rather than not have that 
information available.

	I would like to focus on a few of the Administration's proposals now, and particularly the 
consolidation of funding for adult services and their waiver provisions. As I mentioned, there are 
some other provisions that they have proposed that we think are more moderate and are likely to be 
more effective, but we think in these two areas the Administration's proposals are unwarranted and 
unwise.

	Similarly, although we are not experts in the youth provisions of this, we understand from 
colleague organizations that there are significant concerns about the elimination of the youth 
councils and the total exclusion of in-school youth from services under the youth provisions.  But 
focusing on the consolidation proposals, we think it is unwise to consolidate these three funding 
streams.  There is not any evidence that we have seen yet, that duplication or inefficiencies are 
resulting from the division between dislocated and adult workers.

	Historically, Congress has provided guidance on the distribution of these funds.  We know 
that there is current transfer authority, but we have no idea how many local areas are taking 
advantage of that transfer authority and how many of them are at the 20 percent cap that was in 
place; so we think it is inappropriate at this time to completely merge those two funding streams.

	The point here is not to quarrel about which hundred thousand people get training; the point 
we should be worried about is how we can get more training delivered to more people, and 
combining these funding streams will not accomplish that.

	We are also troubled by the elimination of the Wagner-Peyser employment service.  The 
Administration has made a number of proposals concerning unemployment insurance, devolution 
of the Administration, replacement with personal responsibility accounts or personal reemployment 
accounts, extended benefits, and now elimination of the employment service.  We think that all of 
these threaten to undermine the unemployment insurance structure that we have in place and, again, 
are not warranted.

	There may be more modest efforts needed to spur further collocation between the 
employment service and the One-Stops.  There may be more need for local workforce investment 
boards to coordinate with the employment service that is State administered, but those can be 
accomplished with more modest changes.

	Finally, we are very troubled by the waiver provisions.  There is no basis in experience for 
allowing States to secure waivers to undermine the authority of local boards, to change the 
distribution of local funds.  There is no basis for eliminating the current protections against non-
displacement and nondiscrimination.  That is what both of the new waiver provisions would do.  So 
we urge you not to include those waiver changes in the bill that you mark up in the near future.

	Thank you very much.


WRITTEN STATEMENT OF STEVEN SAVNER, SENIOR STAFF ATTORNEY, 
CENTER FOR LAW AND SOCIAL POLICY, WASHINGTON, D.C.  -  SEE 
APPENDIX F 


Chairman McKeon.	Thank you, Mr. Savner.
	
Ms. Shaw-Henderson


STATEMENT OF BETTIE SHAW-HENDERSON, DISTRICT MANAGER, 
MICHIGAN DEPARTMENT OF VOCATIONAL REHABILITATION, 
KENTWOOD, MI

Congressman McKeon, Congressman Kildee, Congressman Ehlers, and Members of the 
Subcommittee, thank you for inviting me to testify today on what I and many others consider to be 
one of the most effective, evidence-based job training employment programs in the history of the 
workforce world, the Public Program of Vocational Rehabilitation which is administered under the 
Rehabilitation Act of 1973, as amended, in the United States Department of Education.

	I am pleased to be here today on behalf of the National Rehabilitation Coalition, a newly 
formed coalition whose co-chairs include the National Rehabilitation Coalition, the Council of 
State Administrators of Vocational Rehabilitation, and the Association of Persons in Supported 
Employment, and other well-recognized disability organizations.

	In my role as a Vocational Rehabilitation Counselor within the Michigan Department of 
Career Development and Rehabilitation Services, my job and my passion was and is to assist 
eligible individuals with disabilities, including individuals with significant disabilities, in securing 
quality employment by providing informed choice and access to individualized services and 
supports that they require to obtain employment, live independently, and contribute to our 
communities and to our great nation.

	During the 1998 reauthorization of the Rehabilitation Act, which comprises Title IV of the 
Workforce Investment Act, all of us, including consumers, worked together to enhance informed 
choice of individuals with disabilities, one of the many hallmarks of the public VR service delivery 
system.  The 1998 VR amendments also significantly reduced paperwork requirements associated 
with submission of the State plan, which allowed staff to spend more time with individuals with 
disabilities while maintaining success and accountability within the Public VR Program.

	During my time in the Flint, Michigan area, I came to know Congressman Kildee as a good 
friend and a supporter of our program.  He continues to understand and be open to the needs of the 
program.  He understands that millions of people have disabilities and what it takes to assist people 
to secure employment.

	I also had the pleasure of meeting with Congressman Ehlers in Grand Rapids on several 
occasions, and thank you, Congressman Ehlers, for your continued support of the Public VR 
Program.

	In its 83 years of history, the Public Program of VR has assisted 14 million eligible 
individuals with disabilities in obtaining employment.  In fiscal year 2001 alone, this Public 
Program of VR served more than 1.2 million eligible individuals with disabilities, of which 
233,000 entered or reentered the world of work.  That is pretty impressive.

	These same employed individuals earned $3.4 billion in wages and paid $977 million in 
federal and state and local Social Security and Medicare taxes.  Moreover, evidence-based research 
has shown that individuals with disabilities who are employed rely less on income-supported 
programs and other forms of State and Federal assistance.

	A recently rolled-out longitudinal study which was commissioned by the Congress in 1992 
to the Rehabilitation Act tracked over a 5-year period 85 selected applicants, consumers of the VR 
program, from 37 VR agencies.  The impressive findings of this study found that the Public VR 
Program works effectively in employing individuals with disabilities, in securing quality 
employment and reentering employment by services that are provided by qualified rehabilitation 
counselors.

	The public vocational rehabilitation program in your State is a strong State/Federal 
partnership.  It promotes the independence and employment of individuals with disabilities, and 
maintains longstanding successful partnerships with a wide array of individuals, public/private 
providers of vocational rehabilitation services and supports, including community rehabilitation 
programs, and, of course, our many employers in businesses.

	One of the many partnerships of the VR program includes its collaboration and linkage of 
the workforce investment system.  The Public VR Program is a mandatory partner in the One-Stop 
system included under the Workforce Investment Act of 1998.  The National Rehabilitation 
Coalition continues to believe in the power of productive partnership to respect and respond to the 
needs of individuals with disabilities, especially those with the most significant disabilities.

	The Public VR Program, which comprises Title IV of the Workforce Investment Act, could 
write the book on partnerships, because we have been successfully partnering and collaborating for 
decades with employers and stakeholders at the Federal, State, and local levels.  We know how to 
do it, and we do it well.

	State Vocational Rehabilitation continues to support and promote participation in One-Stop 
centers on a cost allocation basis, which we have been doing since the implementation of the 
Workforce Investment Act, consistent with what we believe was the congressional intent, that the 
mandatory partners continue to contribute to the system consistent with the partners' authorizing 
legislation.

	Productive partnerships for individuals with disabilities must ensure that physical, 
pragmatic accessibility requirements are met consistent with the Americans with Disabilities Act 
and sections 504 and 508 of the Rehabilitation Act of 1973, as amended.

	Though some progress has been made to effect physical accessibility for individuals with 
disabilities entering One-Stop, programmatic access remains an important challenge we must meet.  
We need to continue to work with it if individuals with disabilities, especially those with the most 
significant disabilities, are to be effective and to effect access to all services offered through One-
Stop centers.

	 The message to all is a simple one:  If individuals with disabilities cannot get through the 
door of One-Stop centers or are unable to meaningfully access the information services once inside, 
they cannot be served or have the opportunity to access meaningful information about the world of 
work.  They cannot access the program.

	A few final observations, if I may.  I ask your support for continuation of mandatory 
funding for Title I programs of the Rehabilitation Act, which funding, although woefully 
inadequate, at least provides some grant for this job placement program.  Presently, 37 States are 
on an order of selection, which places priority for services on those individuals most significantly 
disabled.

	I would respectfully ask, however, if at all possible, that you would please consider 
additional funding for Title I, for the Title I program, and other programs that I believe have 
demonstrated that the programs administered under the Public Programs of VR embody the ABCs 
of solid vocational rehabilitation practice.  They are accountability, bipartisanship, and they are 
comprehensive and cost effective.  Most importantly, they assist in empowering millions of 
individuals with disabilities to enter or reenter the world of work.

	I would like to take this opportunity to thank Congress for instituting separate funding in 
the fiscal year 2003 budget for three important programs under the Public Programs of VR, which 
are programs related to projects with industry, supported employment, and funding for migrant and 
seasonal farm workers.

	Lastly, I would like to thank you for this opportunity to testify on Public Programs of VR   I 
promise that if you entrust the State VR agencies with additional funds to administer this successful 
employment program and if I am invited back to the next reauthorization, I will have more 
impressive information to share with you.

	May I encourage you, if you have not already, and I know most of you have already done 
this, to visit your State VR office in your district.  Please do so.  I know you will be impressed with 
our success, and the difference that we, and particularly our qualified staff, working in 
collaboration with individuals with disabilities can make in achieving quality employment.

	Again, thank you.  I would be more than glad to answer any questions at this time.


WRITTEN STATEMENT OF BETTIE SHAW-HENDERSON, DISTRICT 
MANAGER, MICHIGAN DEPARTMENT OF VOCATIONAL 
REHABILITATION, KENTWOOD, MI  -  SEE APPENDIX G


Chairman McKeon.  Thank you very much.  Let us get through with this one before we invite you 
back to the next one, but I appreciate your offer.
	
Mr. White, you outlined examples of how the Chamber collaborated with the economic 
development system to bring new jobs to the Durham area.  Can you elaborate on the outreach to 
the business community in which you engage, and how you have successfully formed these 
connections?

Mr. White.  Thank you, Mr. Chairman.  We have within our economic development program plan 
an inclusiveness that involves the manager of the Employment Security Commission, the venue 
that houses the One-Stop career link center.  That individual also serves on the Durham Chamber 
of Commerce board of directors, so there is almost daily interaction.  Thanks to the U.S. Chamber's 
leadership, the Center for Workforce Preparation, and our WINS demonstration project, we have 
actually created within our Chamber a workforce development division that is very compatible 
with our economic development function, so we have an internal staff manager who goes out with 
our corporate recruiter and actually works with the site selection team in the process of trying to 
recruit them to a facility for a land purchase, for an expansion of an existing enterprise.  So that is 
done on a daily basis.

	The gentleman from Texas mentioned the community college system.  The community 
college president serves as our treasurer, so there is a lot of interaction.  I happen to serve as a 
trustee and foundation director on a community college board, so there is lots of give and take.  We 
all know what we are doing.

	It promotes harmony, and it needs to do that, because there have been some references 
made this afternoon about the disharmony that exists with different terminology and protocols.  We 
have been able to streamline those by saying it is in all our best interests to recruit companies to 
give good-paying jobs to our citizens and to satisfy multiple constituencies.  It satisfies our 
economic development interests as a Chamber of Commerce and satisfies all the One-Stop job link 
career partners, including vocational rehabilitation, our social services department with TANF 
participants, all of our school programs that serve at-risk youth, and unfortunately we have a very 
high dropout rate in our jurisdiction, and all of the dislocated workers.

	Despite the fact that we have led our State in new and expanding industry for the third 
consecutive year, we have also had thousands of jobs go by the wayside, and people who have 
never been unemployed in their lives.  Unfortunately, we have a concomitantly high poverty rate 
for youth and adults.  Even though we are home to research Triangle Park, home to Duke 
University, we have not been able to lift all boats, so there is still a challenge.

Chairman McKeon.	Thank you.

Mr. Twomey, the Subcommittee has heard that the current performance measurement does 
not capture all of the activity at the local level and in the One-Stop system.  I know I have seen this 
when I have visited centers; there is a real concern about that.

	In your testimony, you recommend using technology such as swipe cards to capture this 
usage.  How would we capture this information without creating an unnecessary burden on local 
areas?

Mr. Twomey.  Our thirty-three areas in New York are using swipe cards now.  Those ten centers 
are able to come up with usage information.

	I have been to most of the WIB meetings in New York at various times.  What the business 
people want to know is what our penetration for job seekers and businesses is, and what our usage 
and repeat usage is.  That is a big number to them.  It is difficult without that technology to find 
that number.

	Those ten reported that that did not seem to be a big problem or intrusive to people.  In fact, 
our business majority State board in their last meeting voted to seek State government's 15 percent 
money and buy a swipe card system for the other twenty-three workforce areas.  They want to 
know how many people are using the system and how is it improving year-to-year, and if our 
resources are out of alignment.

	In order to do this, they are very sensitive to privacy concerns, so they want to bring in 
some of the people who are users of the system in New York, and also bring in some of the people 
who helped write the software.  

Mr. Twomey.  If I could just take one second to say I visited one sub-center in Boston run by Tom 
Ford, just a fabulous center, and they are 100 percent swipe card.  If somebody doesn't come back 
for 30 days, they have an outside firm contact the person to find out why and they use that data for 
continuous improvement.  It is quite impressive.

Chairman McKeon.  My district changed quite a bit with redistricting.  I went from a suburban 
area with some rural areas, to less suburban and a lot more rural areas. One of my counties is the 
second largest county in the country, over 10,000 square miles, with about 18,000 people.  The 
chance of them trying to have a One-Stop where you could use that kind of technology is 
something we are going to grapple with as we go through this, because I am sure I am not the only 
one.

	I have been to Nebraska; I have been to some of these other States that have similar 
problems.  We are trying to figure out how we can make the system available in rural areas like 
that.  I know there is lots of technology available out there.  We need to focus on that also, because 
we have very severe problems in rural areas just like we have in very urban areas.

Mr. Kildee.

Mr. Kildee.  Thank you, Mr. Chairman.  Mr. Twomey, what do you think will be the effect of the 
Administration's WIA reauthorization on local communities?

Mr. Twomey.  Congressman Kildee, we received it on Thursday, looked at it all day Friday, and 
were able to turn a 10-page paper into a 14-page matrix.  That is kind of unusual.  We find that 
some things in it are very encouraging and going in the right direction; and there are some, quite 
frankly, I find more troubling.  On the positive side are smaller workforce boards dealing in real 
issues with, as I think Mr. White said, all the players in the community involved.  That has not 
always been the case in many areas.

	Dedicated funding for the One-Stop will lead to more training.  A lot of the training 
programs are pretty good.  Career scholarships, simplifying OJT, those are positives.  As for the 
adult block, I think that what Assistant Secretary DeRocco said is true; that there has not been the 
amount of integration that you gentlemen hoped there would be when you put this bill together. I 
don't think that would be my way of doing it.

	I think you could clarify the employment service role to the workforce investment boards.  
You could suggest to the core employment service, which would have a lot of other funds, that 
there could be common performance measures.  Separate funding for the One-Stop would free it.  
The transfer authority could be done now; it has been moved to 30 with a simplified waiver.  You 
could go to 40 and maintain the integrity.  I just don't know enough details yet.

	I have to say I am very leery, as Steve was, of the waiver.  I think we are building a system 
that is starting to work.  It looks to me, if governors chose to, they could redraw boundaries, 
eliminate local boards, redraw the funding formula, and diminish the role and resources for the 
chief elected officials.  So I need to see more there.

Mr. Kildee.  The waiver does concern you.

Mr. Twomey.  Yes, it does.  But my bias is local.  If my bias was more State, I might appreciate it 
more.

Mr. Kildee.  How do you feel the block grant for the adult education, the dislocated workers, and 
the employment services would affect the program on the local level?

Mr. Twomey.  Well, I think that we are moving toward that spectrum of collocation to 
collaboration.  Collocation would be like a condo; we are all there but we really don't have much to 
do with each other.  So we need to get spectrum integration. I thought if there was plenty of money 
and no turf, it was a 7-to-10-year deal.  There was plenty of turf and little money.  But still there is 
progress there.

	The 50/50 split concerns me.  And maybe my math is just bad, but the way I looked at it in 
New York, it looked like we lost about $9 million off the top, from $102 million to $93 million.  
While I would agree from 40 percent to 50 percent would go out locally, we don't have enough 
infrastructure yet.  I think it is because we haven't shown a value to occupational partners in the 
community. 

I bet youth councils would have been better with paid staff.

Mr. Kildee.  Okay, thank you very much.  Thank you.  I yield back.

Chairman McKeon.  Mr. Payne.

Mr. Payne.  Well, I certainly missed all the testimony and will not belabor or lengthen the hearing.  
I certainly have some concerns about some of the new PRAs and the WIA and the vouchers and 
with some of the direction that the Department of Labor is taking.  I hope that we are still going to 
be there primarily to assist and benefit those people who have been disadvantaged by the downturn 
in the economy and by unemployment.  My concern is in the future how we deal with 
unemployment.  I am talking about 5 years out, 10 years out, unless unemployment is going to go 
away forever.

	Currently we heard about the new voucher system where people would be able to use up to 
$3,000 any way they saw fit.  But it is sort of a one-shot deal.  And I am just worrying about 
chronic unemployed people, and areas that are losing jobs in general, and whether we are going to 
have chronic unemployment, and just what happens to the unemployed.

	We have very little discussion about what happens to a person whose unemployment 
expires.  Maybe somebody out there could tell me what happens when a person is unemployed and 
all their assistance has run out.  Have any of you been in contact with people in those situations?  
What do they say, and how do they exist, where do they go, how do they live?

Mr. Savner.  I think it is very difficult for those families.  Some of those families may be eligible 
to receive other forms of public assistance; many are not.  Though particularly if they don't have 
children, we don't have much of a safety net after unemployment insurance, which is why 
extensions, until we recover from the recession and are really able to make sure that people get 
work within 26 weeks, are critically important.  There is a fairly tattered array of services 
particularly for those individuals who don't have families.

Mr. Twomey.  New York is a State that has a constitutional amendment to care for the needy.  So 
if someone would be off unemployment assistance and have no other resources, they would go 
50/50 State.  I think that we are in an area now where a lot of people in my State are losing jobs 
that were relatively well paid in manufacturing, and other jobs like that aren't there for the skill sets 
they have today.  

My colleagues have made a very good case about the impending crisis we are facing in this 
country between demographics and skills because the last time I looked, our Federal investment in 
workforce development adjusted for inflation was down almost 25 percent from 1985 to 2003.  So 
we need to find ways to get people skilled for the jobs that are coming, and do a better job of labor 
market information in the One-Stops.  That is a problem.

Mr. White.  It is a problem for us as well, Congressman. We went through some major economic 
dislocation in the 1980s in our market in the central Piedmont area of North Carolina, where 
historically our economy had an underpinning of tobacco and textiles.  Those individuals could be 
retrained.  It was more cyclical unemployment.  We brought in semiconductor companies, 
electronics firms.  Now those individuals in information technologies have been laid off, and they 
have been laid off for a longer length of time.  Fortunately, we have an influx of biotechnology and 
bio-informatics, biomedical engineering.  But it is a struggle indeed.

Mr. Payne.  I am glad you raised that point, because in New Jersey where we had benefited from, 
for example, telecommunications before the break up of the Bell system, the whole gamut was 
there; AT&T, Bell Labs, the New Jersey Bell, Bell Atlantic, and so forth.  And, of course, after 
Judge Green and the breakup of the Bell system and the beginning of many startups, such as Sprint 
and GTE and all those others, we now find that people who are pretty highly skilled college 
graduates, technical in nature, employed at the Verizons and the rest, are having tremendous 
layoffs.  These people are really, like I said, highly skilled and well educated but are finding an 
extremely difficult time in trying to find adequate employment.  

As a matter of fact, many of them are going to try to start small businesses. We find now 
there are a tremendous number of people trying to restart their lives with small businesses.  But as 
you know, it is difficult to make a large percentage of small businesses work.  So it is a very 
serious problem.

	I do have one real quick question about the $3,000 in vouchers.  The $3,000 vouchers, of 
course, are going to cost $3.6 billion in unemployment money.  And I just wonder if we you think 
that is going in the right direction, and at the end of the day where are we going to be?

Mr. Savner.  We are concerned about that proposal.  The $3,000 is really intended to meet a whole 
range of needs: income support needs, incentives to go back to work, training needs.  And we are 
concerned it may not be sufficient to meet any of those purposes, frankly.  

We did a survey of One-Stops in 2001 to find out what the limits were on training vouchers.  
And what we found was in most places a $4,000 to $6,000 cap on training vouchers.  We are very 
concerned the $3,000 isn't going to buy a good quality training program.  So on that score, we think 
it is probably not a great proposal.  And we are also concerned that it is not an effective substitute 
for a real unemployment extension for those who need it.

	So finally I think on this whole issue of duplication and efficiency, on the one hand the 
Administration proposes to consolidate several funding streams to make things more efficient, yet 
they are asking us at the same time to set up a whole new structure, a different service delivery, 
which is ironic and runs against the notion of efficiency and non-duplication.

Mr. Twomey.  A positive is $1.8 billion in new money in a system that in a good year stays the 
same, and is never affected by inflation.  Customer choice is one of the backbones of the individual 
training accounts.  The fact is that in the earlier markup in this Subcommittee, there was a 
connection with the emerging local workforce system that is a positive.  We are not fully aware of 
some of the other details yet.  One of the unfortunate things, at least in New York, is that our 
allocations have gone down; people have dropped the amount for individual training. So as we go 
forward we are just exploring where we go and don't have a consensus yet.

Mr. Payne.  Let me thank the Chairman for allowing me to ask the questions.

	I would finally like to say we had some concern about the civil rights part of this, too.  And 
if you get people who want successes and they find several women coming in to do something that 
they figure men have a better possibility for success, we can see women perhaps being 
discriminated against and without any civil rights enforcement, I think that is also going in the 
wrong direction.

	Thank you, Mr. Chairman.

Chairman McKeon.  Thank you.  Well, as has been said by each of you, I think you have 
concerns about some of these issues.  You see good things, and you see bad things.  As we say 
here, the Administration proposes and then the Congress disposes.
 
 	They have given us a package and we are now in the process of looking at it. We are 
listening to your input, we will be making changes, and we will draw up a bill. Then we will go 
through the amendment process through Subcommittee and Full Committee and the Floor, and then 
on to the Senate.  So there will possibly be quite a bit of change as we go through this process, and 
we would like to have your continued input.  We thank each of the witnesses for traveling here 
today, and for your valuable time.

	If there is no further business at this point, the Subcommittee stands adjourned.


Whereupon, at 4:30 p.m., the Subcommittee was adjourned.












APPENDIX A - WRITTEN OPENING STATEMENTOF CHAIRMAN BUCK 
MCKEON, SUBCOMMITTEE ON 21ST CENTURY COMPETITIVENESS, 
COMMITTEE ON EDUCATION AND THE WORKFORCE











APPENDIX B - WRITTEN STATEMENT OF EMILY STOVER DeROCCO, 
ASSISTANT SECRETARY OF LABOR, EMPLOYMENT AND TRAINING 
ADMINISTRATION, U.S. DEPARTMENT OF LABOR, WASHINGTON, D.C. 











APPENDIX C - WRITTTEN STATEMENT OF ROBERT H. PASTERNACK, 
ASSISTANT SECRETARY FOR SPECIAL EDUCATION AND 
REHABILITATIVE SERVICES, U.S. DEPARTMENT OF EDUCATION, 
WASHINGTON, D.C.











APPENDIX D - WRITTEN STATEMENT OF THOMAS J. WHITE, 
PRESIDENT AND CEO, GREATER DURHAM CHAMBER OF 
COMMERCE, DURHAM, NC 











APPENDIX E - WRITTEN STATEMENT OF JOHN TWOMEY, PRESIDENT, 
NATIONAL WORKFORCE ASSOCIATION, WASHINGTON, D.C. 











APPENDIX F - WRITTEN STATEMENT OF STEVEN SAVNER, SENIOR 
STAFF ATTORNEY, CENTER FOR LAW AND SOCIAL POLICY, 
WASHINGTON, D.C. 











APPENDIX G - WRITTEN STATEMENT OF BETTIE SHAW-HENDERSON, 
DISTRICT MANAGER, MICHIGAN DEPARTMENT OF VOCATIONAL 
REHABILITATION, KENTWOOD, MI 























APPENDIX H  -  SUBMITTED FOR THE RECORD, STATEMENT OF 
CARLOS LOPEZ, ON BEHALF OF HERMELINDA SAPIEN, EXECUTIVE 
DIRECTOR, CENTER FOR EMPLOYMENT TRAINING, SAN JOSE, CA











APPENDIX I  -  SUBMITTED FOR THE RECORD, STATEMENT OF THE 
ASSOCIATION FOR PERSONS IN SUPPORTED EMPLOYMENT (APSE), 
RICHMOND, VA 











APPENDIX J  -  SUBMITTED FOR THE RECORD, STATEMENT OF THE 
COUNCIL OF STATE ADMINISTRATORS OF VOCATIONAL 
REHABILITATION (CSAVR)











APPENDIX K  -  SUBMITTED FOR THE RECORD, STATEMENT OF 
CONSORTIUM FOR CITIZENS WITH DISABILITIES ON BEHALF OF 
VARIOUS ORGANIZATIONS LISTED HEREIN











APPENDIX L  -  SUBMITTED FOR THE RECORD, STATEMENT OF TREVA 
ROANHORSE, PRESIDENT, CONSORTIA OF ADMINISTRATORS FOR 
NATIVE AMERICAN REHABILITATION, WINDOWROCK, AZ


181


Table of Indexes



Chairman McKeon, 2, 6, 8, 11, 12, 14, 17, 19, 21, 22, 24, 26, 27, 28, 29, 31, 34, 35, 37, 39, 41, 44, 
45, 46, 47, 50
Mr. Ehlers, 15, 16, 17, 34, 35
Mr. Gingrey, 24
Mr. Hinojosa, 24, 25, 26, 31, 32, 33, 34
Mr. Johnson, 19, 20, 21
Mr. Kildee, 12, 13, 14, 28, 29, 35, 46, 47
Mr. Pasternack, 8, 12, 14, 15, 16, 21, 27, 28, 29, 32, 33, 34
Mr. Payne, 48, 49
Mr. Savner, 48, 49
Mr. Tierney, 21, 22, 23, 24, 26, 27, 29, 30, 31
Mr. Twomey, 45, 46, 47, 48, 49
Mr. White, 35, 45, 48
Mrs. McCarthy, 17, 18, 19
Ms. DeRocco, 11, 12, 13, 16, 17, 18, 19, 20, 22, 23, 24, 25, 26, 29, 30, 31, 32






</pre></body></html>
